    Under the provisions of the Inspector General Act of 1978, Public Law 95-452, as amended, we report twice
yearly to the Congress on the activities of the Office of Inspector General. We describe the major problems, abuses,
and deficiencies identified during audits, inspections, and investigations, along with our recommendations for
corrective action.
    Requests for this document, in this form or in an alternative format to meet the needs of persons with
disabilities, should be addressed to Office of Inspector General, U.S. Department of Commerce, Room 7099C
HCHB, 14th & Constitution Ave., NW, Washington, DC 20230. Telephone requesters can call (202) 482-0231
or TDD (202) 482-5897.
    An electronic version of this report, as well as electronic versions of most performance audit and inspection
reports issued during the semiannual period, can be obtained via the OIG’s Internet Home Page at
http://www.oig.doc.gov/reports.
            IG’s Message for the Secretary

October 31, 1998

The Honorable William M. Daley
Secretary of Commerce
Washington, DC 20230

Mr. Secretary:

This report provides a comprehensive overview of Office of Inspector General activities for the second half of fiscal
year 1998. Section 5 of the Inspector General Act requires that you transmit this report, with any comments you
may wish to add, to the appropriate congressional committees within 30 days.

In my first full semiannual reporting period, I am proud to note that the OIG has established its first formal strategic
plan, a top priority of mine once I was appointed as Acting Inspector General. With our strategic plan in place, we
are currently working to develop our biennial performance plan. As part of this process, we are soliciting input from
Commerce officials and from OMB and the Congress. Our plan will focus on the top management challenges facing
the Department, as well as the goals and objectives outlined in both our and the Department’s strategic plans. We
have also implemented a variety of ideas, techniques, and systems to improve OIG work performance and admin-
istrative operations, including identifying and correcting any Y2K deficiencies in our internal systems.

We have continued to work closely with departmental and bureau managers to identify and address the major
management challenges facing Commerce and its operating units. This type of cooperation and action on the part of
Commerce managers often makes a real difference between maintaining the status quo and implementing positive
change. During this reporting period, for example, we issued eight audit, inspection, and evaluation reports pertaining
to the 2000 decennial that have been highly influential in improving how the Census Bureau does business. Our
cross-cutting analysis of Commerce’s special agreements, such as memorandums of understanding and interagency
agreements, is finding that although they generally appear to serve important and appropriate functions, they are
frequently not written, approved, and executed properly. And midway through our review of discretionary funding in
financial assistance programs, with individual program audits still underway, our preliminary results indicate that
funding processes and practices can be improved in order to better ensure competition and merit-based selections. In
response to these and most of our reviews, I am pleased to note that the Department’s managers have taken, or
committed to take, substantive actions to address our recommendations.

I am proud of the accomplishments of this office. I look forward to continuing to work with you and your
management team to further improve the Department’s operations.

                                                   Sincerely,



                                                   Johnnie E. Frazier
                                                   Acting Inspector General

Enclosure


September 1998                            Commerce IG Semiannual Report                                                    i
                         Table of Contents

     IG’S MESSAGE FOR THE CONGRESS ....................................................................... 1
          Foreword .............................................................................................................. 1
          Major Challenges for the Department ..................................................................... 2
              Increase the accuracy and control the cost of the 2000 Decennial Census ......... 2
              Obtain a clean opinion on the Department’s consolidated financial statements ... 3
              Address Commerce’s year 2000 computer problem .......................................... 4
              Manage PTO’s space requirements and lease costs .......................................... 5
              Successfully implement NWS’s Advanced
                 Weather Interactive Processing System ....................................................... 6
              Successfully implement a Department-wide financial management system ........ 8
              Expand private sector participation in NOAA’s
                 marine and aeronautical data gathering ........................................................ 9
              Reassess NTIS’s mission and financial viability .............................................. 11
              Maximize competition in the Department’s financial assistance programs ........ 12
              Emerging challenges for the Department ........................................................ 13
          Resolution and Follow-Up ................................................................................... 14

     DEPARTMENT OF COMMERCE ORGANIZATION CHART .................................... 16

     AGENCY OVERVIEWS .............................................................................................. 17
         Economic Development Administration ................................................................ 17
         Economics and Statistics Administration ............................................................... 24
         International Trade Administration ....................................................................... 35
         Minority Business Development Agency .............................................................. 41
         National Oceanic and Atmospheric Administration ................................................ 44
         National Telecommunications and Information Administration .............................. 63
         Patent and Trademark Office ............................................................................... 64
         Technology Administration .................................................................................. 68
         Departmental Management .................................................................................. 72

     OFFICE OF INSPECTOR GENERAL ......................................................................... 79

     REPORTING REQUIREMENTS ................................................................................. 80

     STATISTICAL HIGHLIGHTS ..................................................................................... 84

     TABLES AND APPENDIXES ..................................................................................... 85

     DEFINITIONS OF TYPES OF OIG REVIEWS AND
     FINANCIAL STATEMENT AUDIT TERMS ............................................................... 97

     GLOSSARY OF ABBREVIATIONS ............................................................................ 98

     OIG ORGANIZATION CHART AND POINTS OF CONTACT ....... (Inside Back Cover)


ii                         Commerce IG Semiannual Report                                                   September 1998
          IG’s Message for the Congress

                                              FOREWORD
     As we observe the 20th anniversary of the Inspector General Act, I am proud of the contributions that the
Commerce OIG has made over the past two decades in providing leadership and making objective recommendations
for reducing fraud, waste, and abuse, and promoting economy, efficiency, and effectiveness in Commerce programs
and operations. Notwithstanding these significant contributions, I believe there is always room for improvement. We
continue to search for new and better ways to make our work more meaningful and productive and better accom-
plish our mission, while diligently adhering to the principles embodied in the IG Act.

     Directing our efforts toward Commerce activities that offer the greatest potential for improvements and cost
savings has remained one of our greatest challenges. One of the first actions I undertook after assuming my
responsibilities as the Acting Inspector General was to begin developing a strategic plan for the Commerce OIG—the
first such plan since our office was established in 1978. I am pleased to report that we now have a strategic plan in
place and have begun developing a biennial performance plan. Both documents will go a long way toward ensuring
that our resources are properly focused and that we are more effectively achieving our mission goals and objectives.

    During this semiannual period, we have continued to provide independent, timely analyses of Commerce
activities, emphasizing early identification of potential problems so that corrections can be made before schedules
have slipped and significant funds have been spent. We have, for example, issued eight reports on various aspects of
the Census Bureau’s preparations for the 2000 Decennial Census. We believe that the observations and recommen-
dations discussed in these reports will be useful to Census and departmental officials as they continue decennial
planning. We also issued our first inspection report on the National Polar-orbiting Operational Environmental Satellite
System acquisition program, a 10-year tri-agency initiative of Commerce, Defense, and the National Aeronautics and
Space Administration.

    Likewise, we have been involved in an array of other audits, inspections, and evaluations, the findings and
recommendations of which have contributed to improving the way Commerce does business. Our inspections of
selected operating units’ use of memorandums of understanding and other special agreements have generated
recommendations for improving their handling and management. Our financial statement audits have provided
valuable insights to guide the Department in strengthening its financial management. And our reviews of ITA’s
foreign and domestic operations have identified ways to improve Commerce’s important trade promotion efforts.

    Looking ahead, we have initiated two major reviews at the request of the Congress. We recently began
examining the Department’s export licensing controls for dual-use commodities as part of a multi-agency Inspector
General review of export licensing prompted by a request from the Senate Governmental Affairs Committee. We
also are making great progress on our review of the Department’s discretionary financial assistance programs, which
was requested by the Chairman of the Senate Commerce, Science, and Transportation Committee.

    We look forward to continuing to work with the Department and the Congress in addressing Commerce’s
current and emerging challenges.




September 1998                            Commerce IG Semiannual Report                                              1
IG’s Message for the Congress


                                      MAJOR CHALLENGES
                                     FOR THE DEPARTMENT
                            Commerce, with its many important and diverse programs and
                       missions, is faced with its share of problems, concerns, and difficult issues
                       that we view as key management challenges. This section highlights what
                       we consider to be the major challenges for the Department. By addressing
                       these challenges, the Department and the Congress can improve program
                       management, eliminate serious operational problems, decrease vulnerability
                       to fraud and waste, and achieve significant cost savings.

                       Increase the Accuracy and Control
                       the Cost of the 2000 Decennial Census
                           Every 10 years, the Bureau of the Census conducts a census to count
                       the nation’s people. The decennial census is an enormous and complex
                       task—one of the most difficult that the federal government has to under-
                       take. The accuracy of decennial census data is critical because it is the
                       basis for apportioning seats in the House of Representatives and is used to
                       support a host of other activities, including federal and state redistricting
                       and the distribution of billions of dollars of federal and state funds.

                            There is, for a variety of reasons, an unprecedented level of interest
                       on the part of the public, the Congress, and other 2000 Decennial Census
                       stakeholders in the bureau’s planning for the 2000 decennial. The
                       Department recognizes the challenges presented by the decennial and is
                       providing increased oversight and management support. The decennial has
                       also remained one of our top priorities during this semiannual period, as
                       evidenced by our issuance of eight reports on various aspects of the
                       bureau’s decennial planning efforts. Six of the reports focus on operations
                       at the three dress rehearsal sites—the city of Sacramento, California; an
                       11-county area near and including the city of Columbia, South Carolina;
                       and the Menominee Indian Reservation near Keshena, Wisconsin (see
                       page 24). A seventh report addresses the bureau’s plans and procedures
                       for the Local Update of Census Addresses program (see page 30), while
                       an eighth discusses the adequacy of the bureau’s security measures for the
                       transmission of sensitive data (see page 33).

                            Our reviews of dress rehearsal operations disclosed that, as intended,
                       the dress rehearsal was demonstrating which programs being considered
                       for use in the decennial census were working well and which were not. We
                       identified a number of programs and activities that were operating
                       effectively, and were particularly impressed with the dedication of bureau

2                     Commerce IG Semiannual Report                                September 1998
                                                                    IG’s Message for the Congress


management and staff. However, we also identified a number of problems
that need to be addressed in order to ensure efficient decennial operations.

    The bureau still faces some formidable challenges in completing
preparations for the decennial, which include (1) completing the design,
development, and testing of major automated systems, (2) completing the
development of an accurate master address file, and (3) developing a final
decennial design, incorporating lessons learned from the dress rehearsal.

     The bureau plans to use an unprecedented level of automation in the
2000 decennial. Although the bureau is developing a large amount of
software itself, it is contracting out for much of the information
technology, including the design, development, installation, and operation
of a new data capture system that will use electronic imaging to read the
data from census forms and convert it to electronic format for further
processing. Our reviews of the dress rehearsal operations identified
shortcomings in the bureau’s requirements management and software
development processes which produced problems that, if not addressed,
could put the 2000 decennial schedule at risk.

     In addition, in accordance with the “dual-track” agreement with the
Congress, the bureau continues to plan for both a sampling and a non-
sampling census. Although two recent federal court decisions prohibit the
bureau from using statistical sampling techniques in estimating the
population for the purpose of congressional apportionment, an appeal has
been filed with the U.S. Supreme Court. The requirement to plan for both
alternatives has placed an additional burden on bureau staff resources, and
the continued uncertainty surrounding the ultimate design for the 2000
decennial certainly makes the upcoming decennial census one of the
greatest management challenges to be addressed by the Department.

Obtain a Clean Opinion on the Department’s
Consolidated Financial Statements
The Chief Financial Officers Act of 1990 and the Government Manage-
ment Reform Act of 1994 were designed to improve the financial
management practices of federal agencies. The acts require audited
financial statements that present an entity’s financial position and results of
operations and provide other information needed for the Congress, agency
executives, the public, and others to assess management’s performance
and stewardship. The Department received “disclaimers of opinion” on its
FY 1996 and 1997 consolidated financial statements. The Secretary, the
Deputy Secretary, the Chief Financial Officer and Assistant Secretary for
Administration, the General Counsel, and other senior Commerce officials


September 1998                             Commerce IG Semiannual Report                        3
IG’s Message for the Congress


                       have emphasized the importance of the Department’s receiving a clean
                       opinion on its consolidated statements and have taken steps to ensure that
                       this happens as soon as possible.

                            Although the Department has strengthened its financial management
                       over the prior year, obtaining a clean opinion is not an easy task. In
                       FY 1997, six bureaus received improved audit opinions, and the Depart-
                       ment’s reporting entities reduced the number of material weaknesses in
                       their audit findings from 37 to 22. However, numerous qualifications on
                       the balance sheets of NOAA and one for EDA, along with a disclaimer on
                       ITA and disclaimers on many of the major bureaus’ income statements,
                       resulted in a disclaimer on the Department’s consolidated statements. Until
                       NOAA, Census, EDA, and other bureaus, which in aggregate are material
                       to the Department, receive other than disclaimers on their remaining
                       statements, the Department will be precluded from receiving a clean
                       opinion on its consolidated statements. FY 1999 poses additional
                       challenges with the implementation of new Financial Accounting Standards
                       Advisory Board standards and OMB Bulletin 97-01, Form and Content of
                       Agency Financial Statements, which require additional financial
                       statements and disclosures.

                       Address Commerce’s Year 2000
                       Computer Problem
                            Many of the Department’s program, financial, and administrative
                       computer systems use two-digit year dates that will become inaccurate
                       beyond December 31, 1999. Unless this problem is corrected, there is
                       serious risk that the Department’s mission-critical computer applications
                       will cease functioning properly. As the year 2000 (Y2K) approaches, there
                       is an increased demand on the Department’s management to ensure that
                       critical systems are operational and that contingency plans are in place for
                       those that will not be ready by the deadline.

                       Our office, like the General Accounting Office and other OIGs, has
                       already played a major role in highlighting some of the issues that need to
                       be addressed. For example, in our October 1997 memorandum, “Observa-
                       tions on the Department’s Year 2000 Efforts,” we reported that the level
                       of concern and urgency about meeting OMB’s Y2K conversion deadlines
                       was inadequate throughout the Department. As of August 17, 1998, the
                       Department reported that 76 percent (348 of 455) of its mission-critical
                       systems were Y2K compliant. However, our monitoring suggests that this
                       statistic is neither reliable nor a good indicator of the amount of work
                       remaining. Moreover, even systems that have been renovated, tested, and
                       certified as compliant may encounter unanticipated Y2K problems.


4                     Commerce IG Semiannual Report                               September 1998
                                                                     IG’s Message for the Congress


    The Department has recently hired a new Chief Information Officer,
and we are working closely with him to better ensure that Y2K conversion
efforts receive high-level attention. The Secretary, the Deputy Secretary,
and the CFO, along with the Chief Information Officer, have stated their
commitment to ensuring that an independent verification and validation of
mission-critical systems is performed and that business continuity plans are
developed to minimize the potential disruption of services due to the Y2K
problem. The big challenge here is for all involved parties, including the
secretarial officers and senior managers, to take the actions necessary to
gain a reasonable level of assurance that systems with Y2K problems will
operate correctly beyond 1999.

Manage PTO’s Space Requirements
and Lease Costs
     The Patent and Trademark Office’s space consolidation project
presents a special challenge for the agency as it contends with the need to
reinvent the way it operates its business practices to make them more
efficient and effective. The project is expected to be one of the largest real
estate ventures that the Department of Commerce, or the federal govern-
ment, will undertake in the next decade. In October 1995, the agency
received congressional approval to acquire a new or rehabilitated facility of
up to 2.4 million square feet in northern Virginia to consolidate its facilities
and operations and accommodate its future space requirements.

    On behalf of PTO, the General Services Administration will award a
contract to a private developer to construct a new facility or renovate an
existing facility and lease it back to PTO for at least 20 years with the
option to buy. The solicitation for offers calls for the construction of the
building shell, to include basic electrical and mechanical systems, which
will be “built out” upon completion of the interior design. The lease
development project is expected to be awarded in December 1998 or
January 1999, with occupancy to begin in November 2001.

     Given the size and importance of the planned PTO consolidation
project, we conducted a review to determine whether (1) the project was
justified and (2) PTO was effectively managing the critical acquisition
phase of the project. The review, which was discussed in our March 1998
issue (see page 54), concluded that the project was justified and should
continue. We also found that PTO was managing many aspects of the
lease/development procurement well.

    However, we expressed several concerns about PTO’s management
and planning for this major procurement. For example, PTO had failed to
finalize its space requirements or reach agreement with one of its major

September 1998                              Commerce IG Semiannual Report                        5
IG’s Message for the Congress


                       unions concerning working conditions related to space requirements in a
                       timely manner. Also, in determining its requirements, PTO had failed to
                       factor in potential savings and efficiencies gained from systems
                       reengineering and automation. Although PTO has since made progress in
                       defining its requirements, it still has not reached agreement with all of the
                       employee unions.

                           In addition, our March 1998 report concluded that the methods used
                       to pursue the build-out of the facility needlessly exposed the government to
                       increased cost risk, and recommended a contractual ceiling of $29 million
                       on the build-out. Recently, the Congress drafted legislation limiting PTO to
                       a $36-per-square-foot cap for office space and a $29 million ceiling for an
                       above-standard build-out, which GSA has agreed to manage.

                            Finally, we reported that PTO lacked an interagency agreement with
                       GSA, and that the Department had not provided PTO with sufficient real
                       estate management oversight. On September 4, 1998, PTO and GSA
                       executed a memorandum of understanding, as we recommended, defining
                       their working relationship, including the establishment of a fee structure
                       capped by the terms of the prospectus, PTO’s right to return unneeded
                       space, and GSA’s continuing role as construction manager.

                           In response to our report, the Department has increased its real estate
                       management oversight of the PTO consolidation project. On behalf of the
                       Department, a consultant reviewed and validated PTO’s approach to its
                       space requirements. Also, a senior departmental official is serving on the
                       GSA/PTO Source Selection Board, which will make a recommendation to
                       GSA’s source selection official on the successful offeror.

                           In September, the Acting Inspector General testified before the
                       Subcommittee on Transportation and Infrastructure of the Senate
                       Committee on Environment and Public Works on our review of the space
                       consolidation project (see page 67). The Acting IG noted that although
                       some of the concerns raised in our report have been addressed by PTO
                       and we remain satisfied that this project should continue, we believe that
                       continuing management attention and OIG oversight will be needed to
                       ensure that the project is completed in a timely, cost-effective manner and
                       within the cost limits prescribed by the Congress.

                       Successfully Implement NWS’s Advanced
                       Weather Interactive Processing System
                            The Advanced Weather Interactive Processing System (AWIPS), the
                       key integrating element of the National Weather Service’s (NWS) modern-
                       ization program and an essential ingredient to achieving operational

6                     Commerce IG Semiannual Report                                 September 1998
                                                                   IG’s Message for the Congress


improvements and staff reductions, is also the last major system of the
modernization to be implemented. AWIPS is to provide the capability to
acquire data from advanced observing systems and to give forecasters
tools to rapidly analyze the data, integrate it with the information provided
by the weather service guidance centers, and prepare timely and accurate
warnings and forecasts for dissemination to the public and the media.

     AWIPS continues to warrant OIG oversight and departmental
management attention. Amid concerns about escalating costs, discussion
continues on exactly what the system will deliver and when it will be
completed. The Congress, OMB, and Commerce have cause for concern.
In March 1998, the Secretary certified to the Congress that AWIPS would
be completed within the $550 million cap and that the system would
provide sufficient capabilities to replace the aging field office systems.
Before certification, the Department received an independent assessment
of the cost to complete AWIPS, which concluded that development of all
capabilities identified in the requirements baseline would cost more than
$550 million. As a result, NOAA reduced the level of capabilities to be
developed within the cap and created a new baseline, which was to
maintain AWIPS’s ability to replace aging systems. The Department also is
working with NOAA to improve the management and organization of the
program in order to help deliver the needed capabilities within the cap.

     Also, in April 1998, the Secretary approved Key Decision Point-4,
allowing NOAA to deploy AWIPS nationwide. This, the last Secretarial
decision point for the program, signifies that the Department is confident
that the system has reached a level of maturity, stability, and supportability
sufficient to commit funds for hardware procurement.

     A key certification requirement was that AWIPS should provide
capabilities that are sufficient to replace the aging information processing
systems at NWS field offices. We have had an ongoing concern about
AWIPS’s ability to fully replace Automation of Field Operations and
Services (AFOS), NWS’s primary system, because NOAA has been slow
in identifying what capabilities are needed to do so. NOAA has recently
assured us that these capabilities will soon be identified and that AWIPS
will be able to almost fully replace AFOS. Operational test and evaluation
of AWIPS, scheduled to begin in May 1999, should clearly demonstrate
that AWIPS has the capabilities to allow AFOS, as well as other existing
systems, to be removed from the field.

     In addition, NOAA has not implemented the testing improvements that
it committed to at Key Decision Point-4. NOAA recently told us that the
improvements in stress testing and in testing the accuracy of the displayed
meteorological and sensor data for the last incremental software release

September 1998                             Commerce IG Semiannual Report                       7
IG’s Message for the Congress


                       will be completed within the legislatively mandated cost cap. However, as
                       development activities are nearing completion, NOAA is still working to
                       specify how system testing will be modified and strengthened.

                            The management challenge is for AWIPS to complete development
                       and deployment activities within the cost cap. Although NOAA believes
                       that it will meet the cap, as of September software development was one
                       month behind schedule, and some planned testing had been modified to
                       make up for the schedule slip. We are concerned that testing may be
                       reduced in order to meet the schedule, which could affect software quality.
                       We are also concerned that capabilities might be reduced due to time
                       constraints or software development or testing problems. We will continue
                       to monitor AWIPS’s progress toward fully replacing AFOS.

                       Successfully Implement a Department-wide
                       Financial Management System
                            The Department is not in compliance with the federal requirement for
                       a single, integrated financial management system. Commerce’s existing
                       financial systems are seriously outdated and fragmented; unable to provide
                       timely, complete, and reliable financial information; inadequately
                       controlled; and costly and difficult to maintain. These systems have not
                       proven to be effective in preparing and reporting the financial results of the
                       Department and its bureaus. The Department reported this as a material
                       weakness in the Secretary’s Annual Statement and Report - Federal
                       Managers’ Financial Integrity Act, dated December 31, 1997.

                            Commerce has wrestled with this issue for many years, having begun
                       developing a Department-wide financial system in 1992. Notwithstanding
                       large investments of time, money, and effort, implementation of this
                       system, known as the Commerce Administrative Management System
                       (CAMS), proved more difficult than anticipated. In October 1997, the
                       Department implemented a new CAMS implementation strategy, which
                       consists of focusing implementation efforts at the Bureau of the Census on
                       a pilot basis before implementing the system Department-wide. Although
                       some issues remain, an independent verification and validation concluded
                       in August 1998 that CAMS appeared viable and would provide a
                       significant improvement over the previous control environment.

                            In September 1998, the Office of the Chief Financial Officer and
                       Assistant Secretary for Administration completed its analysis of the CAMS
                       development and implementation strategy. It examined the benefits, risks,
                       and costs associated with several potential implementation options. The
                       strategy identified as the best is continuing CAMS at Census, implementing


8                     Commerce IG Semiannual Report                                September 1998
                                                                 IG’s Message for the Congress


the system at NOAA and NIST, and having all other bureaus establish
cross-servicing arrangements with other Commerce bureaus or other
government agencies as appropriate. The Department is now working with
NOAA to develop a specific implementation plan with cost, schedule, and
technical performance requirements. This plan will be reviewed by an
independent contractor before it is implemented. NIST intends to move to
CAMS, and other bureaus are considering alternative solutions.

    The challenge: Overcoming a history of deployment delays, con-
fronting continuing skepticism, and controlling costs while implementing a
Department-wide financial management system that is capable of
producing accurate, timely, and reliable financial data.

Expand Private Sector Participation in NOAA’s
Marine and Aeronautical Data Gathering
Marine Data

     The Congress, OMB, GAO, the Department’s CFO, the OIG, and
others have repeatedly urged NOAA to explore alternatives to its plan to
maintain an agency-designed, owned, and operated fleet for acquiring
marine data. We are pleased to note that NOAA has made some progress
in this regard, namely in the area of nautical charting. NOAA has used
recent increases in appropriations to expand its use of private hydrographic
surveyors, and in March and April 1998, it issued four contracts for data
collection worth $10.8 million. While NOAA has traditionally obtained ship
services from outside its own fleet to support some of its fishery stock
assessments and oceanographic research, opportunities exist for more to be
done, particularly in the area of fishery research.

    We remain concerned that NOAA is still trying to buy and operate four
new fishery research vessels (one each year from FY 2000 to 2003)
without thoroughly assessing other viable alternatives. We believe that
NOAA should not focus its efforts on designing, owning, maintaining, or
operating ships. Instead, the agency should clearly articulate its program
needs for ship services to the private sector, academia, and other govern-
ment ship operators with the goal of identifying modern, more cost-
effective platforms for its data collection needs. The Secretary and OMB
have also recognized the need for NOAA to explore alternatives for
acquiring marine data. For example, in their budget guidance to NOAA,
they highlighted that the funding provided is for “equivalent fleet”
resources, not necessarily to acquire, build, and operate ships.

    While we acknowledge our long-standing disagreement with NOAA’s
approach to relying almost exclusively on its own in-house fleet of ships to

September 1998                            Commerce IG Semiannual Report                      9
IG’s Message for the Congress


                       provide program data, NOAA appears to be overlooking some salient
                       points made in a report it recently requested. The report, completed by a
                       respected retired Navy admiral after extensive consultation with public and
                       private sector experts, agrees that NOAA’s aging fisheries research vessels
                       need to be replaced, but questions NOAA’s intent to acquire and operate
                       the new fisheries research vessels without:

                       l       a national plan for the use of the new vessels in conjunction with
                               the nation’s other oceanographic and fishery research and assets;

                       l       a national plan for the development and fielding of technologies
                               and techniques to improve the nation’s fisheries, oceanography,
                               and monitoring capabilities;

                       l       an externally oriented approach to the acquisition and operation of
                               the new vessels that provides for their full, efficient, and effective
                               use in collaboration with other activities; and

                       l       a commitment by NOAA, the Department, and OMB to request
                               appropriate resources to fund the above three items, not just the
                               acquisition of the ships.

                            It is our understanding that NOAA has prepared a detailed data
                       acquisition plan for its fisheries mission and intends to acquire the new
                       vessels through the Naval Sea Systems Command. The retired admiral’s
                       report describes this strategy as the least desirable approach and details
                       many preferable competing alternatives, such as combinations of build and
                       charter, and buying vessels and assigning them to members of the Univer-
                       sity National Oceanographic Laboratory System for use by academia and
                       industry when not in use by NOAA. NOAA’s challenge is to thoroughly
                       assess viable alternative approaches to relying on its own in-house fleet.

                       Aeronautical Data

                           Since its establishment in 1983, NOAA’s Aircraft Operations Center
                       (AOC), now located at MacDill Air Force Base near Tampa, has been
                       responsible for gathering atmospheric, oceanographic, and other data for
                       such programs as hurricane and major storm research, nautical and
                       aeronautical charting, climate and global change, and snow and aerial
                       surveys. As NOAA’s major flight operations group, AOC operates a fleet
                       of 14 aircraft, composed of two heavy craft, a mid-size jet, eight light
                       fixed-wing aircraft, and three helicopters.

                           In December 1996, the President’s Council on Integrity and Efficiency
                       reviewed the management of the federal civilian aircraft fleet, including

10                    Commerce IG Semiannual Report                                 September 1998
                                                                      IG’s Message for the Congress


NOAA’s aircraft fleet, and found that it cost the government in excess of
$1 billion annually to operate its aircraft programs. Additional studies of
operational efficiencies, commissioned by GSA, reported opportunities to
reduce costs by $92 million annually if most agencies consolidated their
operations and entered into sharing arrangements.

     The OIG conducted an audit to determine whether outsourcing is
more cost-effective than in-house operation in meeting NOAA’s aircraft
requirements. Our audit (see page 44) concluded that the full in-house cost
of operating NOAA’s fleet of eight light fixed-wing aircraft and two
helicopters (the third helicopter was out of service at the time of our audit)
averaged 42 percent more than the cost to operate similar aircraft in the
private sector. In FY 1996, NOAA and interagency programs spent an
additional $1.9 million compared to private sector costs. We recommended
that NOAA privatize its light aircraft operations. NOAA’s challenge is to
find the best way to collect its aeronautical data.

Reassess NTIS’s Mission and Financial Viability
    In our September 1997 issue (see page 52), we discussed our concerns
about the proposed conversion of the National Technical Information
Service to a performance-based organization (PBO). At that time, we
included this matter on our list of the Department’s top 10 management
problems, since NTIS lacked the two key prerequisites for becoming a
PBO: (1) a clearly defined mission and (2) the ability to generate sufficient
revenues to support business operations. The Department subsequently
decided not to support NTIS’s conversion to a PBO, and this issue was
removed from our list. Unfortunately, the issue now reappears on our list
because of deepening concerns about NTIS’s operational stability and
financial viability.

     Later in this report (see page 68), we discuss the results of our recent
audit of NTIS’s business operations. We found that as the agency contin-
ues to lose money, its ability to sustain itself through its traditional clearing-
house operations looks increasingly uncertain. NTIS lost $3.8 million in
FY 1997, and $1.5 million in the first 11 months of FY 1998. If current
trends continue, NTIS will run out of funds in FY 1999. Sales of
publications from its clearinghouse declined from almost 2.3 million units
in FY 1993 to 1.5 million in FY 1997. Moreover, federal agencies are
increasingly bypassing NTIS as a distribution channel, instead offering
their publications directly to the public over the Internet.

    NTIS is attempting to curb its losses by raising prices, cutting costs,
and developing new products and services. Although these actions should
produce short-term benefits, we do not believe that they effectively

September 1998                               Commerce IG Semiannual Report                       11
IG’s Message for the Congress


                       address the fundamental problem affecting its clearinghouse operations.
                       We are also concerned that in order to replace lost sales, NTIS is seeking
                       business opportunities on the perimeter of its statutory mission, where it
                       risks competing against privately financed businesses.

                            NTIS’s disappointing operating results highlight the Department’s
                       challenge because they raise questions not only about NTIS’s ability to be
                       self-sustaining, but also about the need for a single agency to serve as a
                       clearinghouse for technical publications. As we recommended, the
                       Department’s challenge is to undertake a review of NTIS’s operations to
                       develop a plan for addressing the long- and short-term problems. The
                       Department recently directed TA to obtain an outside consultant to
                       perform an independent review of NTIS’s operations.

                       Maximize Competition in the Department’s
                       Financial Assistance Programs
                           Discretionary financial assistance programs involve a significant
                       portion of the Department’s budget and operations. Six Commerce
                       agencies administer 71 discretionary financial assistance programs
                       providing about $1 billion a year to state and local governments,
                       educational institutions, nonprofit and for-profit organizations, and
                       individuals. If not properly administered, such programs are susceptible to
                       fraud, waste, and abuse of funds. For these reasons, we have long
                       recognized the need to routinely invest OIG resources in the oversight and
                       evaluation of such programs.

                           At the request of the Chairman of the Senate Commerce, Science, and
                       Transportation Committee, we are conducting a review of Commerce’s
                       discretionary financial assistance programs to examine the processes and
                       practices used to make funding decisions. The Chairman, who made
                       similar requests of the IGs of the Department of Transportation, the
                       National Aeronautics and Space Administration, and the National Science
                       Foundation, asked that we evaluate the criteria developed, either statutorily
                       or administratively, to guide Commerce officials in making discretionary
                       funding decisions, as well as the extent to which such criteria are
                       appropriately applied.

                           The use of competitive selection procedures is recognized by the
                       Department and others as the most effective method of ensuring that
                       financial assistance awards are made on the basis of merit. Although our
                       review is still underway, our preliminary observations indicate that there
                       are opportunities for improving the Department’s discretionary funding
                       processes and practices to enhance competition and better ensure merit-
                       based selections.

12                    Commerce IG Semiannual Report                               September 1998
                                                                   IG’s Message for the Congress


    On July 21, 1998, the Acting Inspector General and the Chief
Financial Officer and Assistant Secretary for Administration testified
before the Senate Commerce, Science, and Transportation Committee on
the Department’s discretionary financial assistance programs. The Acting
IG discussed the results of the survey phase of our review and some early
observations from the individual program audits then underway.

     During this period, we also completed audits of the award processes
for two MBDA financial assistance programs: the Minority Business
Development Center Program and the Native American Business
Development Center Program (see page 42). We plan to issue individual
audit reports on each program selected for review, as well as a capping
report (1) summarizing the results of the individual audits, (2) identifying
cross-cutting issues and highlighting “best practices,” and (3) providing
recommendations for improvement to the Department and its bureaus.

Emerging Challenges for the Department
    As we undertake new reviews of Commerce programs and activities,
we recognize that we may identify additional management challenges.
Among these potential challenges are the following:

Ensure the Continued Adequacy of
Export Controls for Dual-Use Commodities

     The United States controls the export of certain goods and technol-
ogies for national security and foreign policy (including nonproliferation)
purposes. Within Commerce, BXA issues licenses authorizing the export of
certain dual-use commodities—goods and technologies that have both
civilian and military uses. Dual-use export controls are a subject of
continuing controversy, generating a wide range of opinions on how well
U.S. export control policies and practices balance the need to protect U.S.
national security and foreign policy interests with the desire not to unduly
hamper U.S. trade opportunities and competitiveness. Striking this balance
can pose a significant challenge for the parties involved.

     The Senate Committee on Governmental Affairs recently tasked us,
along with the OIGs of the Departments of Defense, Energy, State, and
the Treasury and the Central Intelligence Agency, to conduct an
interagency review of the export licensing process. This review, which will
include following up on findings and recommendations from a similar
review completed five years ago (see September 1993 issue, page 15), will
focus on the effectiveness of the Department’s policies, procedures, and
practices in its licensing of dual-use goods and technologies.


September 1998                             Commerce IG Semiannual Report                      13
IG’s Message for the Congress


                       Continue to Improve the Department’s Strategic Planning
                       and Performance Measurement in Accordance with GPRA

                            The Commerce Department, along with other federal government
                       agencies, faces many inherent challenges with respect to how to best plan
                       and measure its performance in accordance with the Government
                       Performance and Results Act of 1993 (GPRA). The Department’s draft
                       strategic plan, covering FY 1997 through 2002, drew criticism from GAO,
                       the Congress, and other stakeholders. The Department substantially
                       revised the plan to address this criticism before submitting it to OMB and
                       the Congress in September 1997.

                            Commerce submitted its first annual performance plan in support of its
                       strategic plan to OMB and the Congress in February 1998. The FY 1999
                       plan was criticized for providing an incomplete picture of intended perfor-
                       mance across the Department and not adequately demonstrating that the
                       data to be used in measuring performance would be accurate, complete,
                       and credible. GAO and the OIG also reviewed the plan and had similar
                       concerns. The Department plans to prepare an addendum to its FY 1999
                       plan to address criticisms received. The Department submitted its second
                       annual performance plan, for FY 2000, to OMB in September 1998. The
                       plan represents a significant improvement over the FY 1999 plan. It
                       contains substantially fewer total performance measures, and the measures
                       are more outcome-oriented, as intended by GPRA.

                            The challenge for the Department is to continue its efforts to improve
                       its performance measurement by ensuring that its annual performance
                       plans (1) present a complete picture of intended performance across the
                       Department, (2) clearly articulate the strategies and resources to be applied
                       in achieving the stated performance goals, and (3) provide assurance that
                       the data to be used to measure performance will be accurate, complete,
                       and credible. Senior Commerce officials should continue to make this
                       effort a priority.




                                    RESOLUTION AND FOLLOW-UP
                           The Inspector General Act Amendments of 1988 require this report to
                       present those audits issued before the beginning of the reporting period
                       (April 1, 1998) for which no management decision has been made by the
                       end of the period (September 30, 1998). The following table presents the
                       overall status.



14                    Commerce IG Semiannual Report                                September 1998
                                                                  IG’s Message for the Congress


    Type of Audit Report                                    Unresolved

    Performance                                                   1

    Financial Assistance                                         11

    Financial Statements                                          0

    Preaward Contract                                             2

    Postaward Contract                                            0

     The OIG and NOAA have met to discuss alternatives for resolving the
one outstanding performance audit, and NOAA is preparing a revised audit
action plan (see page 61). Two of the 11 unresolved financial assistance
audit reports relate to NOAA awards. One of the reports was issued more
than three years ago; the OIG commented on a draft audit resolution
proposal over six months ago and is awaiting NOAA’s final proposal.
NOAA has not yet submitted a resolution proposal for the other audit
report, which was issued six months ago. The other nine unresolved
matters are audits of NIST awards under the Advanced Technology
Program. Audit resolution proposals have been submitted for eight of the
reports; however, discussions between OIG and NIST officials have not
yet succeeded in resolving all issues. The OIG is awaiting a resolution
proposal for the other NIST award. Additional details are presented on
pages 61 and 71. Discussion of the two unresolved preaward contract
audits can be found on page 82.

    Department Administrative Order 213-5, “Audit Resolution and
Follow-up,” provides procedures for management to request a
modification to an approved audit action plan, or for a financial assistance
recipient to appeal an audit resolution determination. The following table
summarizes modification and appeal activity during the reporting period.

  Report Category                           Modifications       Appeals

  Actions pending (April 1, 1998)                  0                  9

  Submissions                                      1                  5

  Decisions                                        1                  6

  Actions pending (September 30, 1998)             0                  8


    The eight appeals pending final decisions by the Department include
three EDA, one ITA, and four NIST financial assistance audits.

September 1998                            Commerce IG Semiannual Report                      15
                                           Department of Commerce
                                           Organization Chart

                                                    Office of the
                                                     Secretary



       Bureau of                     Economic                         International                          Patent and
        Export                      Development                           Trade                              Trademark
     Administration                Administration                    Administration                            Office




                       Economics and
                                                                                             Technology
                         Statistics
                                                                                            Administration
                       Administration




                                        Bureau of                           National Institute               National
           Bureau of                                                         of Standards
                                        Economic                                                            Technical
          the Census                                                        and Technology
                                         Analysis                                                      Information Service




                                                                                               National
                   Minority Business                    National Oceanic
                                                                                         Telecommunications
                     Development                        and Atmospheric
                                                                                           and Information
                        Agency                           Administration
                                                                                            Administration



                                             National                      National
                                         Marine Fisheries                  Ocean
                                             Service                       Service




                                             National                   NOAA
                                             Weather                     Corps
                                             Service                   Operations




                                                                         Oceanic
                                             NESDIS                  and Atmospheric
                                                                        Research




16                                          Commerce IG Semiannual Report                                    September 1998
                          Economic Development
                                 Administration

Better Monitoring of Problem Projects                                           The Economic Development
Needed for Disaster Relief Awards                                               Administration was established
                                                                                under the Public Works and
    In August 1992, Hurricane Andrew struck south Florida with winds up         Economic Development Act of
to 170 miles per hour, devastating a 20-mile-wide path across south Dade        1965 to generate new jobs, help
                                                                                protect existing jobs, and stimulate
County. The Congress responded to this and other natural disasters by
                                                                                commercial and industrial growth
appropriating nearly $1 billion to various federal agencies, including
                                                                                in economically distressed areas
$80 million to EDA for disaster relief grants. Between 1992 and 1995,           of the United States. EDA does
EDA received 69 Hurricane Andrew relief proposals requesting a total of         this by providing grants to public
more than $130 million and funded 28 projects totaling $50.9 million.           and private nonprofit organizations
                                                                                in communities with problems that
     The OIG performed an audit to evaluate EDA’s effectiveness and             are stifling economic growth;
efficiency in managing its Hurricane Andrew assistance program. In              planning grants to states, cities,
particular, we examined EDA’s project selection process and its                 districts, and Indian reservations;
management and monitoring of the projects funded.                               special economic adjustment
                                                                                assistance to states and local
                                                                                governments with recent, severe
    We concluded that EDA did a good job of quickly selecting the
                                                                                problems or long-term economic
28 hurricane relief projects and, for the most part, chose projects that were   deterioration; technical assistance
both sound in concept and appeared responsive to the economic recovery          to communities to build
needs of the area. Nevertheless, we found that 9 of 16 construction             organizational capacity and solve
projects experienced significant delays. These projects were late in starting   specific economic development
and slow in completion. Several of them may never be finished. As shown         problems; and research and
on the following page, four years after the awards, EDA had disbursed           evaluation grants to increase
98 percent of the grant funds on the timely projects, while a year later, it    knowledge about effective
had disbursed only 30 percent on the nine delayed projects. These               economic development tools.
problem projects unnecessarily tied up millions of dollars that might have
been put to better use for other disaster recovery purposes. As of
September 30, 1998, three of the nine projects remained incomplete.

     Our analysis of the delayed construction projects revealed two
common traits: all but three were located outside the direct path of the
hurricane, and all nine were designed to mitigate or accommodate the out-
migration of businesses or encourage tourism, rather than repair or replace
storm-damaged or inadequate buildings and infrastructure. In contrast, all
of the projects that were completed within a reasonable period were
located within the 20-mile-wide path of destruction and were more
traditional “repair-and-replace” public works projects. We concluded that
the location and purpose of the nine delayed projects rendered them less
urgent than the others and therefore more vulnerable to delays because
they lacked sufficient local impetus to proceed on their own.

     Although the delays among the nine projects were not attributable to
EDA, the adverse impact of the delays was exacerbated by the agency’s
not taking timely action to eliminate or mitigate them, as required by EDA


September 1998                            Commerce IG Semiannual Report                                           17
Economic Development Administration


                                             policies and procedures for managing and monitoring projects. Had EDA
               Economic                      regional officials recognized the symptoms of problem projects earlier in
             Development                     the process, they might have been able to better focus the agency’s scarce
             Administration                  resources and financial leverage on assuring that those projects were either
                                             started and completed on time or were terminated in a timely fashion.

      Program                   Program
                              Research and        Focusing on future disaster assistance efforts, we recommended that
     Operations
                               Evaluation    EDA continue its successful use of on-site planning and award selection,
                                             and ensure that existing policies and procedures for managing and
                   Finance and               monitoring projects are followed. In addition, we urged EDA to develop
                  Administration             supplemental policies and procedures for managing disaster relief projects
                                             that will assist the agency in identifying and more effectively monitoring
                                             those projects most vulnerable to delays.


                                                       Portion of Funds Disbursed During
                                                       Five-Year Period After Grant Award
                                                                         100
                                                  % of Obligated Funds




                                                                         80
                                                       Disbursed




                                                                         60

                                                                         40
                                                                         20

                                                                           0
                                                                               1         2           3        4        5
                                                                                   Time (Years) After Award Date

                                                                                   Timely Projects       Delayed Projects


                                                 EDA accepted our recommendations and agreed to review, and where
                                             appropriate develop, new post-approval procedures for all of its
                                             construction grant portfolio, including disaster projects, to ensure that
                                             projects with higher risks receive special monitoring and assistance.
                                             (Atlanta Regional Office of Audits: ATL-8989-8-0001)




18                                           Commerce IG Semiannual Report                                        September 1998
                                                      Economic Development Administration


Midwest Flood Program Provides
Lessons for Future Disaster Relief Efforts
    In August 1993, the Congress enacted the Emergency Supplemental
Appropriations for Relief from the Major, Widespread Flooding in the
Midwest Act (Public Law 103-75), providing $4.84 billion to federal
agencies to assist victims of the Midwest floods and other disasters. Heavy
flood damage across the Midwest that summer had left about 70,000
people homeless and millions of farm acres too wet to produce crops. The
floods also damaged businesses and related public infrastructure, resulting
in business disruptions, economic losses, and unemployment.

     The act provided EDA with $200 million to assist in the economic
recovery of communities, industries, and firms adversely affected by the
flooding. The agency utilized the grant programs of the Public Works and
Economic Development Act of 1965, as amended, in carrying out its flood
relief responsibilities. EDA implemented its flood relief program by
awarding $192.3 million in grants through four programs: technical
assistance ($8.1 million), construction ($169.7 million), revolving loan fund
($10.5 million), and emergency levee repairs ($4.0 million).

     The OIG conducted an audit to determine whether the projects
awarded (1) complied with the stated purpose of the act, (2) were funded
efficiently and served the legislative purpose, and (3) were performed in a
timely manner to help mitigate the problems caused by the disaster. We
found that all of the grants awarded complied with the Flood Relief Act
and that the great majority of them mitigated the effects of the flood,
utilized funds efficiently, and were performed in a timely manner.
However, we also identified opportunities for EDA to improve its
management of future disaster assistance programs.

l       Technical Assistance Program. Most of the requests for EDA
        disaster assistance were generated through 99 technical assistance
        grants awarded early in the process. EDA’s use of these grants to
        plan RLF and construction projects was a sound approach,
        although some of the projects proposed by the technical assistance
        grantees appeared unrelated to flood damages.

        While encouraging EDA to pursue a similar approach in future
        disaster assistance efforts, we recommended that the agency
        provide technical assistance grant recipients with guidelines to
        better identify and place priorities on projects for disaster funding.
        EDA advised us that actions will be taken to provide these
        recipients with improved guidelines.


September 1998                             Commerce IG Semiannual Report               19
Economic Development Administration


                      l      Construction Program. The construction programs under the
                             Public Works and Economic Development Act do not contain
                             clear criteria for applying them to disasters. While the vast
                             majority of the 160 construction projects funded for disaster relief
                             have clearly helped mitigate the economic damage caused by the
                             floods, we questioned the choice of some projects, and found that
                             slow progress on others raised concerns about their priority.

                             We recommended that EDA develop construction program
                             guidelines that will help applicants and decision-makers identify
                             and appropriately consider projects that have the greatest potential
                             to mitigate the effects of a disaster. EDA explained its philosophy,
                             policy, and regulations related to disaster programs and advised
                             that the grants we questioned were associated with recovering
                             from the disaster or mitigating future disasters. In subsequent
                             meetings with EDA officials, we discussed and verified some of
                             the actions the agency has taken since the 1993 floods to better
                             manage the selection of construction projects awarded for future
                             disaster relief efforts.

                      l      RLF Program. We noted that the 16 grants awarded under the
                             RLF program will remain in place long after the disaster-related
                             needs cease to exist and that grant funds will then be reused for
                             other purposes rather than being returned to the U.S. Treasury. In
                             addition, monies from two RLFs were loaned for purposes unre-
                             lated to economic dislocation caused by the flood, and five RLFs
                             were ineffective because by the time they were implemented, no
                             disaster-affected businesses attempted to borrow funds.

                             We recommended that EDA develop an RLF program to provide
                             aid to disaster-affected businesses only as long as the need for
                             recovery exists, consider using existing RLFs for disaster relief
                             through temporary grant revisions, and deobligate $773,000 in
                             undisbursed disaster funds. EDA generally agreed that the nature
                             of RLFs warrants additional consideration when awarding them
                             for disaster mitigation and indicated that it is considering policy
                             and procedural changes to address this matter.

                      l      Levee Repair and Upgrade Program. The Federal Interagency
                             Task Force on Midwestern Flood Recovery, established by the
                             Administration to coordinate 1993 flood relief efforts, directed
                             EDA to participate in a levee repair program. In implementing the
                             program, EDA awarded just 12 grants for a total of $4 million,
                             only 22 percent of the funding requested by the task force. The
                             difficulty in awarding funds was not the result of inadequate EDA

20                    Commerce IG Semiannual Report                             September 1998
                                                        Economic Development Administration


         management, but was attributable to the task force’s questionable
         strategy to shift responsibility from agencies with experience in
         levee repairs to an agency with no such experience. The fact that
         EDA reviewed 108 levee grant applications but identified only
         12 eligible applicants indicates that this effort was not the most
         effective use of EDA’s limited resources. However, we made no
         recommendations to remedy this situation because it was clearly
         outside EDA’s control. (Denver Regional Office of Audits: DEN-
         8772-8-0001)

West Virginia Awardee Needs to Improve Its
Accounting System and Management Practices
     An OIG report issued during the prior semiannual period (see March
1998 issue, page 47) dealt with a West Virginia foundation incorporated in
1993 to promote high-technology industrial and research facilities in the
state. Since its inception in 1993, the foundation has been awarded
15 grants and contracts totaling about $22 million from federal, state, and
private sources. These awards include two EDA grants—a $1.44 million
grant made in 1995 for site development on the foundation’s campus, and
a $976,000 grant made in 1996 to construct an advanced telecommuni-
cations laboratory. Commerce became the agency responsible for audit
oversight of the foundation’s federal awards in 1996, with the award of a
$5.85 million NOAA cooperative agreement to the organization.

     As noted in our earlier report, we were unable to negotiate an indirect
cost rate for the foundation largely because of deficiencies in its accounting
system and management practices. Although our recommendations relating
to the NOAA project became moot when NOAA and the foundation
agreed to terminate their cooperative agreement in July 1997, the issues
discussed in the report remained viable for other federal awards. There-
fore, we issued an audit report this period to EDA that presented our
findings and recommendations for corrective actions.

     Specifically, we found that the foundation (1) did not report the use of
rental income to EDA, which violates agency requirements and ignores the
significant federal participation in construction of the foundation’s facilities;
(2) improperly classified land improved with federal funds as investment
property; (3) operated an accounting system that was cumbersome,
inefficient, error prone, and lacking internal controls; and (4) used a
procurement system that conflicted with federal standards requiring free
and open competition.




September 1998                              Commerce IG Semiannual Report                21
Economic Development Administration


                          We made several recommendations aimed at improving the founda-
                      tion’s accounting system and management practices. The foundation
                      agreed with most of our recommendations. (Atlanta Regional Office of
                      Audits: ATL-9259-8-0002)

                      Review of Applicant’s Complaint About Trade
                      Adjustment Assistance Certification Process
                           In response to a congressional request, the OIG reviewed EDA’s
                      handling of a petition by an Oklahoma company for certification of
                      eligibility to apply for assistance under the Trade Adjustment Assistance
                      Program. To be eligible for assistance, a company must demonstrate that
                      its sales have been adversely affected by imports. The company in this
                      case complained about the amount of time EDA took to review the
                      petition.

                          In a June 30, 1998, letter to the requestor, we reported that EDA had
                      generally followed applicable regulations and procedures in processing the
                      complainant’s petition, except that it had failed to complete its deter-
                      mination of applicant eligibility within the 60-day period required by law.
                      We found that although the company had been engaged in the petition
                      process for about 12 months, EDA was involved for only about 3 months.
                      For the other 9 months, the company had been working on its petition with
                      a nonprofit organization that recruits applicants for the program under a
                      cost reimbursable cooperative agreement with EDA.

                           We confirmed that EDA organizational changes, including staff
                      reductions, contributed to the time it took the agency to process the
                      petition, which exceeded the statutory time frame by about one month.
                      However, the amount of time involved was primarily the result of how
                      long it took the company to obtain, and EDA to verify, historical business
                      information needed for the company to qualify for assistance. We also
                      found that the nonprofit organization may have given the company an
                      overly optimistic picture of its chances of qualifying.

                           We shared our observations with EDA and recommended that it
                      emphasize to officials of the recruiting organization that they should give
                      applicants a clear understanding of the requirements of the program’s
                      certification process and the fact that there is no guarantee of approval.
                      EDA officials have since made changes in the petition review process that
                      should help ensure that the 60-day deadline is met. (Atlanta Regional
                      Office of Audits)




22                    Commerce IG Semiannual Report                              September 1998
                                                     Economic Development Administration


EDA Settles Issues Related to OIG Audit of
Multimillion-Dollar New York State RLF
     In the September 1993 issue (page 18), we reported that a New York
State agency had mismanaged a multimillion-dollar EDA revolving loan
fund. Our audit disclosed that the agency had failed in its fiduciary
responsibilities as trustee of the fund and wasted or abused substantial
amounts of the RLF’s capital. As a result, the RLF had been depleted by
at least $12 million and, unless corrective actions were taken, would lose at
least another $9.9 million in future years. Among other things, we recom-
mended that EDA require the agency to replace about $12 million in cash
and other assets improperly removed from the RLF, develop a new RLF
plan, and reinitiate periodic reporting to EDA.

    EDA worked diligently to implement the recommendations and, in
April 1998, brought the matter to a successful conclusion when the state
replaced $13 million in cash into the fund, developed a new and acceptable
RLF plan, and reinitiated its reporting on RLF activities. (Atlanta Regional
Office of Audits)

Funds Recovered from North Carolina
County for Missing Equipment
     Last year (see September 1997 issue, page 21), we reported the results
of an EDA-requested review of a project partially funded by three EDA
grants totaling $800,000 that were awarded to a North Carolina county to
develop and equip a farmers’ market. We found, among other things, that
more than $179,000 in equipment was inappropriately removed from the
project site and could not be accounted for, and we recommended that
EDA require the county to repay $111,000 to the federal government for
its share of the value of the missing equipment. Based on a number of
factors, including the age and previous use of the equipment, EDA con-
cluded that requiring repayment of half that amount would be equitable.

     The county appealed EDA’s decision, but failed to provide any new
information to support a reduction in the repayment. In May 1998, the
agency issued its final determination requiring the county to repay $55,000
to the government. In September, the county remitted that amount to
EDA. (Atlanta Regional Office of Audits)




September 1998                            Commerce IG Semiannual Report               23
                                        Economics and
                                        Statistics Administration

 The Economics and Statistics
                                         Dress Rehearsal Activities Highlight
 Administration analyzes                 Improvements Needed for 2000 Decennial
 economic developments, develops
 policy options, and produces a              Every 10 years, the Bureau of the Census conducts a population
 major share of U.S. government          census to enumerate the entire country. Before each decennial census, the
 economic and demographic
                                         bureau traditionally performs a dress rehearsal of planned operations.
 statistics. The Chief Economist
                                         Although the bureau tested some planned 2000 Decennial Census opera-
 monitors and analyzes economic
 developments and directs studies        tions in 1995 and 1996, the 1998 Dress Rehearsal was designed to be the
 that have a bearing on the              major test of many of its operations.
 formulation of economic policy.
 ESA has two principal agencies:              The dress rehearsal is being carried out from December 1997 to
 Bureau of the Census. Census is         December 1998 at three sites—the city of Sacramento, California; an
 the country’s preeminent statistical    11-county area including the city of Columbia, South Carolina; and the
 collection and dissemination            Menominee Indian Reservation near Keshena, Wisconsin. The bureau’s
 agency. It publishes a wide variety     strategy was to combine a large urban site, a small city-suburban-rural site,
 of statistical data about people and
                                         and an American Indian reservation to provide a comprehensive environ-
 the economy of the nation,
                                         ment for testing and refining planned 2000 decennial methodologies and
 conducting approximately
 200 annual surveys, in addition to      determine whether the procedures, systems, techniques, and workflow will
 the decennial census of the U.S.        work effectively in an operational setting.
 population and the decennial
 census of industry.                         To assess whether dress rehearsal operations were efficient and
 Bureau of Economic Analysis.            effective, and met scheduled deadlines, the OIG reviewed operations at all
 BEA’s goal is to provide a clear        three sites and issued six reports discussing various aspects of the dress
 picture of the U.S. economy by          rehearsal. Our reviews disclosed that, as intended, the dress rehearsal was
 preparing, developing, and              demonstrating which aspects of the decennial were working well and
 interpreting the national income
                                         which were not. We identified a number of programs that were operating
 and product accounts
                                         effectively, and we were impressed with the commitment of bureau staff
 (summarized by the gross
 domestic product) as well as            to completing dress rehearsal operations on schedule.
 aggregate measures of
 international, regional, and state           We also identified a number of areas needing improvement to better
 economic activity.                      ensure a successful 2000 decennial. Below we present some of our more
                                         important findings and observations, divided into two broad areas:
                                         (1) operational and programmatic issues and (2) personnel and
                                         administrative issues.

                                         Operational and Programmatic Issues

                                         l       ICM procedures and reporting need improvement. The
                                                 integrated coverage measurement (ICM) operation is intended to
                                                 act as an independent quality check on information being gathered
                                                 by decennial enumerators. It is to accomplish this by creating an
                                                 independent list of housing units and their occupants in certain
                                                 areas for comparison with the list used for enumeration and by
                                                 resolving differences through interviews at ICM housing units.


24                                      Commerce IG Semiannual Report                                September 1998
                                              Economics and Statistics Administration


      The resulting information will be used to estimate the number of
      people and housing units missed or double-counted during the               Economics and
      2000 decennial.                                                              Statistics
                                                                                 Administration
      For ICM to succeed as a quality check, it must be kept
      independent of the regular enumeration operation because the
                                                                           Bureau            Bureau of
      design of the estimation procedure is predicated on the assumption    of the           Economic
      that data collection activities of one operation have not affected   Census            Analysis
      the results of the other. To accomplish this, the ICM operation
      was to be conducted by staff involved only in ICM work at
      locations separate from the local enumeration offices.

      We identified situations at Sacramento that appeared to jeopardize
      the independence of ICM operations from enumeration activities
      being carried out at local census offices. At that site, ICM staff
      were shipping materials from the local office, local office space
      was used for an ICM workstation, and ICM staff worked on
      hiring and testing census personnel at the local office between
      assignments. We believe that the bureau needs to implement strict
      guidance during the decennial to ensure that the two operations
      remain independent.

l     Many problems arose with enumerator maps. Staff from all
      three dress rehearsal sites experienced serious problems with the
      maps they were provided. Among the problems were (1) inconsis-
      tencies between the maps and their associated address list
      printouts, (2) maps not drawn to a useful scale, and (3) delays in
      map production.

l     The quality and effectiveness of enumerator training and
      instructional materials could be improved. Student training
      manuals contained errors and confusing acronyms, and lacked
      indexes. As a result, in observing non-response follow-up
      enumeration in Columbia and Sacramento, we found that
      enumerators were often unaware of required procedures and
      unprepared to handle questions and problems that arose.

l     Bureau software did not generate accurate information about
      “special places” at both Columbia and Sacramento. The
      deficiencies in the software must be eliminated to ensure that
      enumerators have all relevant information about these sites, which
      include group quarters and other locations with people who lack
      traditional residences, such as homeless shelters, nursing homes,
      college dormitories, and migrant worker camps. In addition, the
      bureau must require more information to be collected at special

September 1998                        Commerce IG Semiannual Report                                      25
Economics and Statistics Administration


                              places to ensure easier identification of duplicate responses, and
                              must decide whether to enumerate outdoor locations containing
                              only a few people.

                        l     The “Be Counted” program and the questionnaire assistance
                              centers need management attention. At both Sacramento and
                              Columbia, these programs experienced problems with their
                              accessibility to respondents and ineffective implementation in the
                              field. The bureau needs to evaluate the results and examine the
                              cost-effectiveness of the Be Counted forms and the questionnaire
                              assistance centers.

                        l     Menominee dress rehearsal operation was working as
                              intended, but it was not necessarily representative of 2000
                              decennial operations. Dress rehearsal operations were generally
                              working as intended, and when problems arose, management and
                              staff were able to handle them effectively. It is important to note,
                              however, that the Menominee and regional center operation and
                              lines of authority are different from those planned for the 2000
                              decennial and that this site was undoubtedly receiving much more
                              management support than a local office will receive in 2000.
                              Therefore, any extrapolations of lessons learned from Menominee
                              to the 2000 decennial must be made carefully.

                        l     Advertising campaign at Menominee experienced some
                              difficulties. Television and radio spots and some print advertise-
                              ments tested in the Menominee dress rehearsal were generally well
                              received by Keshena staff, focus groups of local citizens, and the
                              local complete count committee, a group appointed by the
                              Menominee tribal chairman. But some advertising products,
                              particularly paid print advertising, had content problems and were
                              not placed as effectively as possible. Moreover, there was no prior
                              consultation and coordination by the prime contractor and the
                              subcontractor with the tribal chairman and the committee, which
                              may have contributed to the content and placement problems.

                        l     Menominee partnership effort needs to be sustained
                              throughout dress rehearsal activities. The 2000 decennial will
                              incorporate partnerships with state and local governments,
                              businesses, community organizations, religious congregations, and
                              the media to increase participation and reduce the undercount (see
                              page 30). The partnership effort made significant early contrib-
                              utions to Menominee dress rehearsal operations. However, most
                              members of the local complete count committee believed that their
                              job was done after enumeration in April 1998 and were not aware

26                     Commerce IG Semiannual Report                             September 1998
                                                Economics and Statistics Administration


      of the extent of dress rehearsal operations that would continue
      until mid-December. As a result, the committee was slow to
      support non-response follow-up and did not adequately
      understand ICM operations. The bureau needs to advise local
      complete count committees to continue their efforts throughout all
      decennial operations.

Personnel and Administrative Issues

l     Payroll/personnel system for 2000 decennial needs
      management attention. This system was designed to support
      payroll and personnel processing and to provide information
      required by the bureau’s management and operational personnel.
      During the decennial, the system will process about 4 million
      personnel actions and about 30 million time and expense forms,
      provide management reports, and maintain historical data.
      However, during the Menominee dress rehearsal, scanning of
      payroll and personnel forms did not accurately capture data,
      forcing clerks to manually correct too much data and sometimes
      scan the same batch of forms more than once.

l     Payroll processing needs to be improved. The Sacramento
      office’s payroll processing system experienced several problems.
      The most serious was that the system accepted and processed
      duplicate time sheets and made duplicate payments to the
      employees involved, a problem also experienced by the Columbia
      office. In addition, documentation of employee time spent on
      training, overtime, and travel was not in compliance with bureau
      procedures. Also at Columbia, because Friday and Saturday time
      sheets from outlying rural areas were often not submitted on time
      for the main payroll run, a second run had to be made each week,
      increasing the workload for payroll processing personnel.

l     Supplemental payment process was slow and confusing. This
      employee incentive program rewards field staff for achieving and
      maintaining a certain productivity level in completing question-
      naires. Problems noted at either Sacramento or Columbia, or both,
      included the following: the program was not well understood by
      regional or local office staff, the automated system did not identify
      all employees eligible for payments, payments were made slowly
      and may have been inaccurate, and quality control procedures
      were not completely implemented. Unclear instructions and
      computer system problems were identified as the causes of the
      program’s inefficient operations.


September 1998                          Commerce IG Semiannual Report                27
Economics and Statistics Administration


                        l       Employee evaluations were not done. Of the 900 employees
                                hired for the Sacramento dress rehearsal, many worked in several
                                operations and will have the opportunity to be rehired for decen-
                                nial 2000 work. But because the local office did not complete
                                employee evaluations, the bureau cannot easily identify who are
                                the best candidates for rehiring and who should not be rehired.

                        l       The reasons that employees separated or were terminated
                                from employment at Columbia were not adequately
                                documented. Having accurate, complete information on why
                                employees leave is important for adequately handling
                                unemployment claims. A 1994 OIG review found that inadequate
                                documentation was a common problem in the 1990 Decennial
                                Census. The bureau received more than 100,000 requests for
                                wage and separation information related to 1990 decennial
                                employment, and the government paid $64 million in claims for
                                1990 decennial-related unemployment compensation.

                        l       Problems were experienced by late delivery of supplies and
                                office materials. Preparations for non-response follow-up were
                                hampered by late delivery of supplies in Columbia and
                                Sacramento. In addition, computer equipment at Columbia had
                                insufficient memory to print files of address lists received from
                                bureau headquarters via the regional census center. At the
                                Keshena and Chicago offices, (1) training manuals and initial
                                supplies for new activities were not delivered until just as the
                                operation was beginning, (2) some equipment, furniture, and
                                supplies were delivered without advance notice, (3) estimates of
                                supplies needed were incorrect, and (4) supplies sent by vendors
                                to the Chicago census offices were not always routed to the
                                correct office or person.


                             We made numerous recommendations to the bureau to address our
                        concerns. The bureau agreed with the majority of our findings and
                        recommendations, and we commend it for its responsiveness in taking
                        quick action to address most of our concerns. Many of the issues we
                        raised have already been resolved, and for others, implementing actions
                        are planned. Among the few issues that the bureau disagreed with were the
                        following, which are presented with the bureau’s comments followed by
                        our response:




28                     Commerce IG Semiannual Report                              September 1998
                                                 Economics and Statistics Administration


l      While acknowledging the need to correct the software problems
       that reduced the effectiveness of special place listings, the bureau
       disagrees with our finding that procedures for identifying special
       places should be reevaluated because it believes that the current
       procedures are sound. We believe that the problems the bureau
       had in identifying special places demonstrate the need to both
       correct its software and reevaluate its procedures.

l      The bureau believes that questionnaire assistance centers provide
       important assistance to individuals without telephones and that
       cost savings from reducing reliance on these centers would be
       minimal because space, and in some cases staffing, are normally
       provided on a volunteer basis by the local community. We believe
       that because the questionnaire assistance center locations are not
       publicized, respondents are not aware of them. Moreover, it may
       be easier for respondents without telephones to use a pay phone
       rather than arrange for transportation to a center. Finally, the
       bureau plans to use paid staff in the centers in 2000, which would
       increase their cost.

l      The bureau believes that eliminating the flexibility of a second
       payroll run would impede its ability to pay its employees on time.
       We continue to believe that the bureau should consider the alter-
       native actions we recommended to avoid a second payroll run.

l      The bureau disagreed with our recommendations concerning
       performance evaluations. It pointed out that it had received
       approval from the Department and the Office of Personnel
       Management to exclude decennial field workers from the appraisal
       system to free temporary supervisors from the responsibility of
       evaluating employee performance that otherwise meets standards.
       The bureau added that guidance is available for supervisors on
       dealing with problem employees. We are not recommending that
       the bureau implement additional systems for evaluating temporary
       employees, only that it use an existing data field in a current form
       to document evaluation comments for all employees. We believe
       that the benefits—identifying good and poor performers and
       documenting information critical to unemployment calculations—
       are much greater than the cost of entering the data.

(Economics and Statistics Audits Division: ESD-10783-8-0001, ESD-
10784-8-0001, ESD-10784-8-0002; Atlanta Regional Office of Audits:
ATL-11050-8-0001; Seattle Regional Office of Audits: STL-11052-8-
0001; and Office of Inspections and Program Evaluations: IPE-10753)


September 1998                           Commerce IG Semiannual Report                29
Economics and Statistics Administration


                        Additional Steps Needed to Improve
                        Partnership Program for 2000 Decennial
                             The accuracy of decennial census data is critical because it is the basis
                        for apportioning seats in the House of Representatives and is used to
                        support a host of other activities, including the distribution of billions of
                        dollars of federal and state funding each year.

                            In conducting the decennial census, the bureau attempts to deliver a
                        questionnaire to every household, a task that requires determining the
                        address of each housing unit in the nation. To accomplish this, the bureau
                        compiles the addresses of housing units into its Master Address File (MAF)
                        database for both “city-style” and “non-city-style” areas. City-style areas
                        have addresses that contain a street name and a house number for mail
                        delivery, while non-city-style areas generally have rural route numbers or
                        postal box numbers. After analyzing data from a 1995 census test, the
                        bureau discovered that MAF had both an under-coverage problem (missed
                        units) and an over-coverage problem (duplicate and nonexistent
                        addresses).

                            To deal with the MAF issues, one of the bureau’s approaches for its
                        address list building strategy for the 2000 decennial involves establishing
                        partnerships with local and tribal governments through a program that is
                        designed to take advantage of those governments’ knowledge of actual
                        address data: the Local Update of Census Addresses (LUCA) program.
                        Under LUCA, the bureau provides its address list to such governments for
                        review and revision.

                             In 1997 the bureau developed a reengineered address list building
                        strategy for the 2000 decennial that included major changes to the
                        partnership effort. The schedule for LUCA, which was tested successfully
                        in 1995 and was already underway for the dress rehearsal in the fall of
                        1997, was advanced by nine months in city-style areas, to begin in early
                        1998. Block canvassing was expanded to cover 100 percent of city-style
                        address areas and will be used to verify address data obtained from local/
                        tribal review.

                             An OIG inspection of the plans and procedures for the partnership
                        effort found that the bureau appeared to have procedures for preparing the
                        city-style part of LUCA, but had not formally defined many of the
                        procedures for accomplishing local/tribal review of the non-city-style part
                        of the address list. We also made observations in the following three areas:




30                     Commerce IG Semiannual Report                                 September 1998
                                                  Economics and Statistics Administration


l     LUCA’s start was slowed by reengineering efforts and budget
      constraints resulting from continuing resolutions. With the
      nine-month advancement of the LUCA schedule, the bureau had
      to mail invitations to participate in the review of city-style
      addresses before the program had been fully defined or dress
      rehearsal feedback thoroughly evaluated. In addition, bureau staff
      responsible for LUCA planning were involved in the dress
      rehearsal, and little time and few resources were available for
      planning the decennial LUCA. Planning was also disrupted by the
      budget constraints imposed by a series of continuing resolutions
      that delayed the hiring and training of outreach staff and the hiring
      of temporary staff at the bureau’s data processing center.

l     Resource planning and management can be improved. The
      reengineered design has created a high demand for the services of
      both outreach and technical staff in the bureau’s regional census
      centers during the early phases of local review operations.
      Outreach staff (called partnership specialists) contact local/tribal
      government officials to encourage them to participate, while
      technical staff train local/tribal staff in how to use the address lists
      and provide ongoing technical assistance.

      However, the resources for these activities are not being
      distributed to the regions in proportion to their likely startup
      workloads. For LUCA activities, each regional center has roughly
      the same number of outreach and technical staff, despite large
      variances in the number of government units they contain. (The
      graph on the following page shows the workload variance among
      regions for partnership specialists.) Some regional officials believe
      that this situation will lead to disparate treatment of governmental
      units across regions.




September 1998                            Commerce IG Semiannual Report                31
Economics and Statistics Administration



                                                Variance in Workload of
                                           Partnership Specialists by Region
                                                      800




                             Government Units per
                             Partnership Specialist
                                                      700
                                                      600
                                                      500
                                                      400
                                                      300
                                                      200
                                                      100
                                                        0




                                                                                         tle
                                                                    n




                                                                         Lo as t
                                                                                A ity

                                                                                 ew s
                                                             a




                                                                                 de k
                                                                                         go




                                                                                            r




                                                                                  Se a
                                                                                         tte



                                                                                           s



                                                                                           i
                                                                                       ve




                                                                             N ele

                                                                            i l a Yor
                                                          nt

                                                                 to




                                                                                        hi
                                                                                        la



                                                                                       ro




                                                                                      at
                                                                                      C
                                                                                     ca
                                                                      rlo



                                                                                     al




                                                                                     lp
                                                       tla




                                                                                    en
                                                               os




                                                                         K Det



                                                                                   ng
                                                                                   D
                                                                            hi
                                                                    ha
                                                      A

                                                             B




                                                                                  D



                                                                                 s
                                                                         C
                                                                 C




                                                                           an

                                                                           s


                                                                         Ph
                                                                                 Region


                        l                  Additional steps are needed to ensure equitable treatment of
                                           suggestions for additions to city-style LUCA address lists.
                                           The reengineered MAF strategy includes block canvassing to
                                           record the mailing address and physical location of every housing
                                           unit in areas with city-style addresses. The cost of this operation,
                                           scheduled for January through May 1999, is estimated to be as
                                           high as $95 million. Given slippages in the LUCA program, it is
                                           unlikely that all suggestions for additions to LUCA address lists for
                                           city-style areas will be received in time to be verified during block
                                           canvassing. Thus, if the bureau relies solely on the block canvass-
                                           ing operation to provide verification data for LUCA suggestions,
                                           the quality of the bureau’s decisions to accept or reject the
                                           suggestions may vary depending on when the suggestions are
                                           received. We believe there are steps the bureau can take to ensure
                                           that local review suggestions are treated equitably.

                             We made several recommendations to the bureau to address our
                        concerns. The bureau agreed with our recommendations. It also
                        (1) provided a list of the operations that would be potentially affected by
                        funding delays or restrictions in possible continuing resolutions for
                        FY 1999 or 2000, (2) described outreach and technical staff increases
                        planned for FY 1999, and (3) outlined its progress with LUCA for the
                        2000 decennial. (Office of Inspections and Program Evaluations: IPE-
                        10756)



32                     Commerce IG Semiannual Report                                          September 1998
                                                  Economics and Statistics Administration


Computer Security over the Transmission of
Sensitive Census Data Needs Strengthening
     Under Title 13 of the U.S. Code, the Census Bureau is responsible for
protecting from disclosure the data it collects about individuals and
establishments. Disclosure of Title 13 data could be seriously damaging to
the 2000 Decennial Census—as well as to other bureau work—because
securing the cooperation of people and organizations depends on an
assurance of data confidentiality. Therefore, the computer and
telecommunications systems that handle decennial data must have security
measures to prevent unauthorized access. Because the bureau’s operations
are geographically dispersed, Title 13 data is routinely transmitted over
telecommunications media.

    The OIG recently conducted an evaluation of the adequacy of the
security measures that the bureau uses in transmitting Title 13 data over its
dedicated circuits (wide area network) and dial-up lines. Our evaluation
identified several concerns about the bureau’s protection of transmissions
of Title 13 data, and we made recommendations to reduce the risk of
disclosure of this sensitive data. Recognizing the importance of these
matters, bureau officials were extremely responsive to our recommenda-
tions and began taking actions to implement them as soon as the security
weaknesses were brought to their attention. (Office of Systems Evaluation:
OSE-10773)

Resource Improvements Recommended
for CAMS Pilot Implementation
    As part of our ongoing monitoring of the Census Bureau’s financial
management activities, we reviewed the bureau’s pilot implementation of
the Commerce Administrative Management System. The bureau was
selected for the CAMS pilot partly because of its pressing need to support
the 2000 Decennial Census with an updated, capable accounting system.
We focused our monitoring efforts on the components designated by the
Department for the pilot, specifically the core financial system, purchase
card, and small purchases modules.

    In a May 29, 1998, memorandum to the Department and the bureau,
we concluded that the June 1998 deadline for completing the CAMS pilot
at Census was achievable. Despite missing some milestone deadlines, the
Department had been successful in restructuring its management of CAMS
and redirecting resources to the pilot implementation. We did, however,
highlight several key areas that needed focused attention by the bureau and
the Department to promote the continued success of the pilot’s

September 1998                            Commerce IG Semiannual Report                33
Economics and Statistics Administration


                        implementation: system development methodology, capacity planning,
                        system architecture and performance, problem/deficit tracking, software
                        configuration management, and service continuity planning.

                            Implementation of the CAMS pilot was successfully completed by the
                        June deadline, and the Department is exploring its options for wider
                        implementation of the system. (Financial Statements Audits Division)




34                     Commerce IG Semiannual Report                             September 1998
                                        International
                                Trade Administration

OIG Reviews Assess the Effectiveness                                           The International Trade
of US&FCS’s Overseas Posts                                                     Administration is responsible for
                                                                               most nonagricultural U.S. trade
    The OIG has undertaken a series of reviews of selected Commerce            issues and works with the Office of
overseas posts, which are under the direction of ITA’s U.S. and Foreign        the U.S. Trade Representative in
                                                                               coordinating U.S. trade policy. ITA
Commercial Service (US&FCS). The reviews are designed to evaluate the
                                                                               has four principal units:
posts’ operational effectiveness and determine whether they are efficiently    Market Access and Compliance.
accomplishing their mission: to assist U.S. companies, especially small and    MAC develops and implements
medium-sized ones, with export assistance. In reporting the results of these   international economic policies of
reviews, we divide our findings into three broad areas: (1) general manage-    a bilateral, multilateral, or regional
ment and organizational issues, (2) program activities and performance         nature. It promotes trade,
measurement, and (3) internal control environment. In the following            investment, and commercial
sections, we summarize the results of two audit reports issued during this     relations, and maintains
semiannual period.                                                             comprehensive commercial and
                                                                               economic data on countries and
                                                                               regions of the world.
Japan
                                                                               Trade Development. TD advises
                                                                               on international trade and
    Japan, representing 75 percent of the entire Asian economy, is the         investment policies pertaining to
United States’ largest overseas trading partner. Consequently, US&FCS          U.S. industrial sectors, carries out
has dedicated more resources to Japan than to any other overseas post. In      programs to strengthen domestic
the 1980s, when the United States emphasized opening up the Japanese           export competitiveness, and
market, US&FCS’s Japan post focused more on helping other federal              promotes U.S. industry’s
agencies in trade negotiations and policy formulation than on assisting        increased participation in
individual U.S. exporters. More recently, while continuing its efforts to      international markets.
gain access to the Japanese market, the United States has placed greater       Import Administration. IA
                                                                               defends American industry against
emphasis on increasing exports through trade promotion activities. At the
                                                                               injurious and unfair trade practices
time of our audit, US&FCS Japan employed 60 people at five offices (in         by administering the antidumping
Tokyo, Osaka, Nagoya, Fukuoka, and Sapporo), and had a FY 1997                 and countervailing duty laws of the
operating budget of $8.4 million.                                              United States, and enforcing other
                                                                               trade laws and agreements
    Our review of US&FCS operations in Japan found that during the             negotiated to address such trade
years preceding our review, the post had done an exemplary job in the          practices.
areas of deregulation, market access, major projects, government               U.S. & Foreign Commercial
procurement, advocacy, and other policy-type matters. Notwithstanding          Service. US&FCS promotes the
these accomplishments, we identified the following issues that warrant         exports of U.S. companies and
                                                                               helps small and medium-sized
management attention:
                                                                               businesses market their goods and
                                                                               services abroad. It has 98 domes-
l       General management and organizational issues. US&FCS                   tic offices and 138 overseas posts
        Japan’s management and organizational environment need                 in 75 countries.
        improvements. Current resource allocation, particularly the heavy
        concentration of staff in Tokyo, appears to reflect US&FCS’s
        former priorities, which focused on gaining market share in a
        relatively closed market. The agency should consider reducing



September 1998                           Commerce IG Semiannual Report                                             35
International Trade Administration


                                                    resources in Tokyo and Osaka and increasing them in Sapporo,
               International                        Fukuoka, and Nagoya to more fully take advantage of exporting
                   Trade                            opportunities.
              Administration
                                            l       Program activities and performance measurement. Because of
                            Market
    Import                                          its emphasis on policy matters, US&FCS Japan’s trade promotion
                          Access and
 Administration
                          Compliance                efforts have suffered. The post has reduced its contact with some
                                                    types of businesses, especially small and medium-sized exporters,
        Trade            U.S. and Foreign           by contracting out some of its core products and services.
                          Commercial
     Development
                             Service
                                                    US&FCS Japan needs to be reoriented to better serve U.S.
                                                    exporters by reintroducing core products and services so that staff
                                                    maintain close contact with the U.S. business community. The
                                                    post should also pay increased attention to serving firms that are
                                                    just beginning to export or are new to the Japanese market. Post
                                                    management also needs to develop a strategic commercial plan
                                                    that includes a countrywide marketing plan. As part of that effort,
                                                    the post needs to reassess the value of its trade center in Tokyo.

                                            l       Internal control environment. US&FCS Japan’s internal
                                                    controls need to be improved. Specifically, we observed significant
                                                    redundancies within the administrative units and a lack of
                                                    coordinated oversight by management. In addition, there is no
                                                    effective internal control structure to separate critical administra-
                                                    tive functions, and account balances were not fully reconcilable
                                                    between ITA, State Department, and Treasury Department
                                                    records. Finally, in a matter that affects reporting requirements
                                                    under the Chief Financial Officers Act, the post had accumulated
                                                    over $2.3 million in unfunded liabilities for personnel benefits for
                                                    its foreign service national employees.

                                                We made a number of recommendations to ITA to address the
                                            identified deficiencies. The bureau did not expressly disagree with any of
                                            our findings or recommendations, but it did question several conclusions
                                            and some of the data in the report. Most specifically, ITA questioned
                                            whether the audit team had requested, obtained, and reviewed all of the
                                            pertinent documentation regarding the report findings. We were able to
                                            assure ITA that the OIG team interviewed all US&FCS Japan personnel
                                            and reviewed all pertinent documentation concerning the matters
                                            discussed. (International Audits Division: IAD-10218-8-0001)

                                            Spain

                                                Enjoying excellent bilateral relations with Spain, the United States
                                            during 1996 achieved a $3.4 billion trade surplus with that country,
                                            resulting from $7.7 billion in exports and $4.3 billion in imports. Yet U.S.

36                                          Commerce IG Semiannual Report                               September 1998
                                                             International Trade Administration


companies continue to face obstacles to doing business there, including
higher import tariffs than those imposed on European firms. At the time of
our audit, US&FCS Spain maintained two offices, in Madrid and Barce-
lona, and employed 4 foreign commercial officers and 15 foreign service
nationals. It had an operating budget of about $1.2 million in FY 1997.

    Our review of the post’s operations covered the following areas:

l       General management and organizational issues. The senior
        commercial officer who arrived at the post in 1996 effected
        several positive changes, such as strengthening interagency
        relationships, reasserting program controls, and redesigning
        strategic planning. Nevertheless, further improvements are needed
        in several areas, most notably the post’s organizational structure,
        which fragments the responsibilities and supervision of
        administrative staff. The absence of a clear assignment and
        supervision hierarchy for administrative functions hampers the
        post’s ability to effectively support operations.

l       Program activities and performance measurement. The post’s
        FY 1997 focus on addressing internal staff problems and improv-
        ing its coordination with other U.S. agencies resulted in a lack of
        attention to US&FCS customers. To remedy this weakness, the
        post needs to place greater emphasis on generating and docu-
        menting “success stories,” US&FCS’s primary performance
        measure. In addition, the post needs to better exploit opportunities
        for small and medium-sized firms in the Spanish economy and to
        improve its market research reporting to make it a more effective
        trade promotion tool.

l       Internal control environment. Although US&FCS Spain had
        adequate controls in place, many of these controls should be
        strengthened to better meet the requirements of the Federal
        Managers’ Financial Integrity Act of 1982. For example, improved
        communication and information flow are needed between
        US&FCS and the State Department’s budget and finance section,
        especially in light of increasing administrative support costs.

    We made recommendations to address the weaknesses we identified.
ITA generally agreed with our findings and conclusions, and the actions it
has planned or taken should begin to address many of our concerns.
(Business and Trade Audits Division: IAD-10593-8-0001)




September 1998                           Commerce IG Semiannual Report                       37
International Trade Administration


                         Dallas USEAC Is Rebuilding to More
                         Aggressively Provide Trade Services
                              ITA’s U.S. and Foreign Commercial Service, the federal government’s
                         most visible export promotion agency, operates an export assistance center
                         network of 19 U.S. Export Assistance Centers (USEACs) connecting
                         100 smaller EACs in a series of “hub and spoke” arrangements. The
                         primary objective of the USEACs is to enhance and expand federal export
                         marketing and trade finance services through greater cooperation and
                         coordination between federal, state, and local partners. USEACs are the
                         hubs: “one-stop shops” that offer U.S. businesses a single point of contact
                         for federal export promotion and finance programs operated by US&FCS,
                         the Small Business Administration, and the Export-Import Bank.

                              The OIG conducted an inspection of the Dallas USEAC to assess the
                         quality of its services and its effectiveness in delivering those services to
                         business clients. We also focused on how well the USEAC coordinates
                         activities with state and local organizations involved in export promotion
                         and how well the staff of the various agencies at the USEAC interact and
                         jointly assist business clients. In addition, we assessed the adequacy of
                         internal controls and the USEAC’s compliance with selected departmental
                         and ITA policies and procedures.

                             Our review found that clients are generally satisfied with the quality of
                         the services provided. The proximity of the office to federal, state, and
                         local partners—one of US&FCS’s primary objectives for the USEAC
                         concept—allows for close cooperation, and the partners generally have a
                         positive impression of the services provided by the USEAC.

                             However, several deficiencies affecting USEAC operations need to be
                         addressed by management: (1) staff were not aggressively pursuing new
                         clients or trade promotion activities, (2) staffing vacancies were adversely
                         affecting operations, (3) recent computer upgrades were not completed
                         properly and have caused problems, and (4) user fee collection procedures
                         lack independent reconciliation and funds were not adequately secured.

                             Among our recommendations were that US&FCS develop a plan for
                         the Dallas USEAC to more aggressively pursue initiatives and activities,
                         minimize delays in filling vacant positions, ensure that the newly installed
                         information technology is operating properly, provide staff training on the
                         new computer technology, improve internal controls over user fee collec-
                         tions, and reconcile bank statements with collection transaction records.




38                      Commerce IG Semiannual Report                                September 1998
                                                              International Trade Administration


    In response to our report, US&FCS outlined steps it is taking to
comply with the intent of most of our recommendations. (Office of
Inspections and Program Evaluations: IPE-11006)

Improvements Are Needed in ITA’s Management
of Interagency and Other Special Agreements
    As part of its Department-wide review, the OIG performed an
inspection of ITA’s management of interagency and other special
agreements. We reviewed and selected 73 out of 164 agreements that ITA
entered into with various agencies, including MBDA, BEA, the Small
Business Administration, the Environmental Protection Agency, the
Export-Import Bank, and the U.S. Agency for International Development.

    We found that these agreements supported ITA’s mission to promote
U.S. exports and to coordinate the export promotion efforts of other
federal agencies. However, the bureau has some shortcomings in its overall
management of agreements. Specifically, we observed that (1) ITA has no
formal written policy for handling agreements, (2) it has no central
repository for agreements, and (3) there were inconsistencies among U.S.
Export Assistance Centers as to whether they use and how they process
agreements in their trade promotion coordination efforts.

     We recommended that ITA develop internal policies and procedures
for its operating units that outline steps for preparing and implementing
agreements and include coordination with ITA’s Office of Financial
Management and the Department’s Office of Acquisition Management and
Office of General Counsel (OGC); distribute relevant guidance and
information for preparing and processing agreements through its computer
network and at appropriate conferences; provide training to staff on how
to properly prepare, process, and administer agreements; and establish a
centralized system to adequately inventory, track, and control its
agreements.

     ITA concurred with most of our findings and recommendations and is
drafting administrative guidance to its operating units to aid them in prepar-
ing interagency agreements. OGC agreed with the recommendations and is
working with ITA to resolve the issues identified. (Office of Inspections
and Program Evaluations: IPE-10752)




September 1998                             Commerce IG Semiannual Report                      39
International Trade Administration


                         Employee’s Telephone Misuse
                         Results in Theft Conviction
                              In April 1998, an international trade specialist was convicted of theft in
                         U.S. District Court for the District of Columbia after an OIG investigation
                         disclosed that he had made more than $17,000 of personal telephone calls
                         over a two-year period using his office telephone and his government-
                         issued calling card. In July 1998, he was sentenced to three years’
                         probation and 100 hours of community service, and ordered to make full
                         restitution to the government. (Washington Field Office of Investigations)




40                      Commerce IG Semiannual Report                                 September 1998
                                 Minority Business
                               Development Agency

Community-Based Enhanced Services                                               The Minority Business
Pilot Project Not Effectively Monitored                                         Development Agency was
                                                                                created to help minority-owned
    The OIG audited MBDA’s monitoring and management of its                     and operated businesses achieve
$240,000 cooperative agreement with a nonprofit organization, and its           effective and equal participation in
subrecipient, for the establishment of a comprehensive minority business        the American free enterprise
                                                                                system, and overcome the social
development program in a Maryland metropolitan area. This award was a
                                                                                and economic disadvantages that
pilot project of the Community-Based Enhanced Services initiative—a             have limited their participation in
pilot to test alternative ways to deliver management and technical              the past. MBDA provides
assistance services to a specific minority business community. Our earlier      management and technical
audit of the cooperative agreement (see September 1997 issue, page 30)          assistance to minority firms upon
found that the recipient had not fully met its responsibilities to provide      request, primarily through a
high-quality services to minority-owned businesses.                             network of business development
                                                                                centers. It also promotes and
     In this second audit, we concluded that MBDA’s monitoring and              coordinates the efforts of other
assessment of the pilot project was ineffective because the agency did not      federal agencies in assisting or
                                                                                providing market opportunities for
fully comply with its own written policies and procedures for oversight.
                                                                                minority businesses.
For example, MBDA (1) did not adequately communicate with
subrecipient officials, (2) ensure that its monitors prepared and submitted
quarterly performance assessment reports, (3) perform source sampling
verification of the subrecipient’s documentation, or (4) adequately review
the subrecipient’s progress in completing supplemental performance goals
established by senior MBDA management. The lack of effective oversight
caused confusion on the part of subrecipient officials about MBDA’s
reporting and documentation requirements and led to MBDA officials’ not
being aware of the extent of the subrecipient’s lack of performance.

    With respect to the oversight of future awards under the initiative, we
recommended that MBDA (1) assign staff with technical and business
experience who will, at a minimum, provide the level of oversight and
monitoring outlined by the agency, (2) ensure that future pilot projects are
effectively assessed and evaluated in a timely and thorough manner to
ascertain whether they should be continued, and (3) develop project-
specific performance measures and reporting requirements to reflect the
nature of the business development assistance.

     MBDA generally agreed with our findings and conclusions, but took
exception to our observation that it did not effectively monitor the project
and outlined a number of monitoring actions it had taken. In our opinion,
these actions did not constitute sufficient and effective oversight. However,
after the end of the semiannual period, MBDA submitted an audit action
plan that will implement our recommendations. (Business and Trade
Audits Division: EDD-9406-8-0002)



September 1998                            Commerce IG Semiannual Report                                            41
Minority Business Development Agency


                                      Awards in Discretionary Funding Programs
            Minority Business
              Development
                                      Followed Departmental Procedures
                 Agency
                                          The OIG performed audits of MBDA’s solicitation, review, and
  Finance and             Strategic   selection processes for discretionary grants under its Native American
 Administration           Planning    Business Development Center and Minority Business Development Center
                                      programs for FY 1997. The two MBDA programs provide business
                                      development services to clients to aid in the creation, expansion, and
       Program             External
     Development            Affairs
                                      preservation of Native American- and minority-owned enterprises. During
                                      FY 1997, the Native American program awarded 2 new cooperative
                                      agreements and 8 continuations or renewals of prior awards, totaling about
                                      $2 million, and the Minority program awarded 12 new cooperative
                                      agreements and 29 renewals, totaling about $9 million.

                                           Our two audits were part of our ongoing Department-wide review of
                                      discretionary financial assistance programs, which was prompted by a
                                      request from the Chairman, Senate Committee on Commerce, Science,
                                      and Transportation (see page 12). He requested that the Inspectors
                                      General of the Departments of Commerce and Transportation, the
                                      National Aeronautics and Space Administration, and the National Science
                                      Foundation review their agencies’ discretionary funding programs to assess
                                      how funding decisions are made. Discretionary funding programs are those
                                      for which federal agencies have the authority to independently determine
                                      the recipients and the funding levels of the awards made.

                                          We found that MBDA’s procedures and practices for awarding the
                                      cooperative agreements under both programs met the Department’s
                                      requirements and were generally adequate. Specifically, MBDA followed
                                      established procedures in soliciting and reviewing applications, and has
                                      adequate procedures and practices for selecting awardees and renewing
                                      prior awards. Yet we also identified several opportunities for improving the
                                      programs’ award procedures and practices, such as:

                                      l       Expanding the solicitation process, through announcements in
                                              additional media outlets and in target population areas, to obtain a
                                              larger pool of eligible applicants.

                                      l       Including officials from outside MBDA and the Department as
                                              proposal reviewers to increase the independence and objectivity of
                                              the review panels involved in the merit-based selection process.

                                          MBDA agreed with our recommendations and is modifying its award
                                      process to implement them along with other improvements. (Business and
                                      Trade Audits Division: BTD-10955-8-0001 and BTD-10956-8-0001)


42                                    Commerce IG Semiannual Report                              September 1998
                                                     Minority Business Development Agency


Awardee Found Not Financially Responsible,
Postaward Costs Should Be Disallowed
     In September 1994, MBDA awarded a $188,000 cooperative
agreement to a Connecticut company to operate a Minority Business
Development Center during FY 1995. The award required the company to
provide a $37,000 cash match. When MBDA proposed to fund the center
for a second year, the Department declined to approve the award for
several reasons: the company had failed to disclose a federal tax
delinquency in its original application, had received Dun and Bradstreet’s
worst business risk ranking, and faced potential bankruptcy. However, the
company continued to operate the center without an agreement for six
months until the proposed award was formally declined in March 1996.

     The Department also declined to approve MBDA’s proposed
retroactive award to compensate the company for the additional six
months of operation. The award would have included a $94,000 federal
share and a $16,000 combined cash and non-cash recipient match. The
Department then requested an OIG audit to determine the extent to which
the company should be reimbursed for the entire 18 months that it
operated the center.

    We concluded that the company should be reimbursed for the federal
portion of the center’s allowable first-year costs; however, it is not entitled
to any federal funds for the last six months, and is due no additional dis-
bursements. The company incurred the second period costs at its own risk
and did not perform as a financially responsible federal award recipient.

    We recommended that the Department disallow $113,000 in
questioned costs and fees for the first year, disallow the full $75,000 in
claimed costs and fees for the last six months, and recover $88,000 in
unearned federal disbursements. The company asserts that the questioned
costs are too high and that it is due an additional $73,000 in federal funds
earned, based in part on its contention that all personnel and related fringe
benefit costs should be allowed because the center operated at a “good” to
“commendable” level. (Atlanta Regional Office of Audits: ATL-8923-
8-0001)




September 1998                             Commerce IG Semiannual Report               43
                                     National Oceanic and
                                     Atmospheric Administration

The National Oceanic and
                                     NOAA Should Privatize Light Aircraft
Atmospheric Administration           Operations and Pursue Full Cost Recovery
studies climate and global change;
ensures protection of coastal             Since its establishment in 1983, NOAA’s Aircraft Operations
oceans and management of             Center, now located at MacDill Air Force Base near Tampa, has been
marine resources; provides
                                     responsible for gathering atmospheric, oceanographic, and other data for
weather services; and manages
                                     such programs as hurricane and major storm research, nautical and
worldwide environmental data. It
does this through the following      aeronautical charting, climate and global change, and snow and aerial
organizations:                       surveys. As NOAA’s major flight operations group, AOC operates a
National Weather Service. NWS        fleet of 14 aircraft, composed of two heavy craft, a mid-size jet, eight
reports the weather of the United    light fixed-wing aircraft, and three helicopters.
States and provides weather
forecasts and warnings to the            In December 1996, the President’s Council on Integrity and
general public.                      Efficiency reviewed the management of the federal civilian aircraft fleet,
National Ocean Service. NOS          including NOAA’s fleet, and found that it cost the government in excess
issues nautical and aeronautical
                                     of $1 billion annually to operate its aircraft programs. Additional studies
charts; performs geodetic surveys;
                                     of operational efficiencies, commissioned by the General Services
conducts research; and develops
policies on ocean mining and         Administration, reported that costs could be reduced by $92 million
energy.                              annually if most agen-cies consolidated their operations and entered into
National Marine Fisheries            sharing arrangements.
Service. NMFS conducts a
program of management,                    The OIG conducted an audit to determine whether outsourcing is a
research, and services related to    more cost-effective alternative to in-house operation in meeting NOAA’s
the protection and rational use of   aircraft requirements. We excluded from our comparison four aircraft
living marine resources.             that either were not in service or had unique capabilities not available
National Environmental               elsewhere. We found that the full in-house cost to operate NOAA’s fleet
Satellite, Data, and Information
                                     of eight light fixed-wing aircraft and two helicopters (the third helicopter
Service. NESDIS observes the
environment by operating a           was out of service at the time of our audit) averaged 42 percent more
national satellite system.           than the cost to operate similar aircraft in the private sector, as shown in
Office of Oceanic and                the chart on the next page. As a result, in-house inefficiencies during FY
Atmospheric Research. OAR            1996 cost NOAA and interagency programs an additional $1.9 million,
conducts research related to the     or 1,840 flight hours, compared to private sector costs.
oceans and inland waters, the
lower and upper atmosphere,               To restructure its aircraft operations, ensuring more cost-effective
space environment, and the Earth.    aircraft services support, we recommended that NOAA:
Office of NOAA Corps
Operations. The Corps is the
                                     l       Retain the two heavy craft and the mid-size jet.
nation’s seventh uniformed
service. Its ships, aircraft, and
personnel support NOAA’s             l       Discontinue operating the eight fixed-wing light aircraft and the
activities throughout the world.             three helicopters and release them, in accordance with OMB
                                             Circular A-126, along with related parts.

                                     l       Fully comply with the established policy that program offices
                                             are to rely on the private sector, when economically
                                             advantageous, to provide aircraft services support.

44                                   Commerce IG Semiannual Report                              September 1998
                                                                                      National Oceanic and Atmospheric Administration


l                Transfer AOC base funding for aircraft support to NOAA’s line
                 organizations, and implement procedures to ensure that they
                 procure aircraft support from the most cost-effective private-                                                                                                                                                                               NOAA
                 sector sources.
                                                                                                                                                                                                                                              National                National
l                Pending release of aircraft and transfer of funding, report the full                                                                                                                                                         Weather                 Ocean
                 cost of each aircraft to GSA in accordance with federal                                                                                                                                                                      Service                 Service
                 accounting guidelines.
                                                                                                                                                                                                                                               National
                                                                                                                                                                                                                                           Marine Fisheries           NESDIS
                                                                                                                                                                                                                                               Service
             Difference Between NOAA Cost and
              Contractor Cost for Light Aircraft                                                                                                                                                                                           Oceanic and
                                                                                                                                                                                                                                           Atmospheric
                                                                                                                                                                                                                                                                      NOAA
                                                                                                                                                                                                                                                                       Corps
                                                                                                                                                                                                                                            Research                 Operations
                                   140
     % That NOAA Cost Is Higher/
     Lower Than Contractor Cost




                                   120
                                   100
                                    80
                                    60
                                    40
                                    20
                                     0
                                   -20
                                                                                                                                                                                                                                 AVERAGE
                                                       Commander
                                         Citation II




                                                                                                                                                                         Bell 212 Helicopter No. 1

                                                                                                                                                                                                     Bell 212 Helicopter No. 2
                                                                   Renegade No. 1

                                                                                    Renegade No. 2

                                                                                                     Shrike No. 1

                                                                                                                    Shrike No. 2

                                                                                                                                   Twin Otter No. 1

                                                                                                                                                      Twin Otter No. 2




                                                                                                      Light
                                                                                                     Aircraft



    Implementation of our recommendations will put up to $11.8 million
of government funds to better use. These funds will involve cost
avoidance of $3.8 million through program procurement of light aircraft
services from the most cost-effective sources over a two-year period, and
up to $8 million from the sale of the light aircraft and helicopters.

    Our review also disclosed that AOC is not recovering the full cost of
work that it performs under reimbursable agreements with outside
government agencies. As a result, in FY 1996, NOAA appropriations in
effect subsidized over half the total cost of most sampled interagency
reimbursable agreements, resulting in a cost underrecovery of $573,000
and the diverting of essential resources from its core mission.




September 1998                                                                                               Commerce IG Semiannual Report                                                                                                                                        45
National Oceanic and Atmospheric Administration


                           To remedy these concerns, we recommended that NOAA
                       discontinue interagency reimbursable work related to the NOAA-owned
                       light aircraft and helicopters. Pending the discontinuance of
                       reimbursable work, NOAA should (1) complete current agreements in
                       accordance with its policy of full cost recovery, (2) revise AOC’s billing
                       practices to be consistent with, and achieve, full cost recovery, and (3)
                       seek reimbursement of the unrecovered full cost balances on all current
                       reimbursable projects.

                            NOAA disagreed with most of our conclusions and
                       recommendations because it believes that the report contained
                       incomplete data, excluded costs that should have been included, and did
                       not take into account the benefits derived by NOAA and its partners
                       from federal cooperative projects. Specifically, NOAA did not agree
                       with our principal conclusion that its group of light aircraft are
                       significantly more costly to operate when their true or full costs are
                       compared with the private sector. Regarding recovering the costs on
                       reimbursable agreements, NOAA asserts that although its policy calls for
                       full cost recovery, the policy also permits the agency to waive certain
                       costs when reimbursable projects are beneficial to it. After careful
                       review of NOAA’s comments, we reaffirmed our conclusions regarding
                       both matters. (Science and Technology Audits Division: STD-9952-8-
                       0001)

                       Satellite Acquisition Well Planned, but
                       Some Life-Cycle Cost Estimates Overstated
                           Since 1994, the Department of Commerce, the Department of
                       Defense, and the National Aeronautics and Space Administration have
                       been working to develop the National Polar-orbiting Operational
                       Environmental Satellite System (NPOESS), the nation’s first polar-
                       orbiting system that will meet both civilian and defense environmental
                       data needs. NPOESS is expected to save $1.3 billion over 10 years by
                       reducing the number of U.S.-owned operational satellites from four to
                       two, increasing the useful life of each satellite from 42 to 84 months, and
                       combining support functions. The acquisition is being managed by an
                       Integrated Program Office (IPO), which reports to an Executive
                       Committee consisting of representatives of the three agencies’ senior
                       management.

                           To reduce overall program costs and risk, in 1996 program managers
                       and agency decision-makers developed a restructured program, called
                       “optimized convergence,” that delayed the date that the first satellite
                       would be needed from 2004 to 2007. A key aspect of the new program is


46                     Commerce IG Semiannual Report                             September 1998
                                     National Oceanic and Atmospheric Administration


early risk reduction for critical payload sensors and algorithms. Sensors
are the components of meteorological satellite instruments that convert
input signals into quantitative information, and algorithms are
computational procedures used to process this information. As part of
the risk reduction effort, in July 1997 IPO awarded multiple contracts for
the competitive design of the sensors and algorithms.

    In an evaluation of IPO’s acquisition process and NPOESS life-cycle
cost estimates, the OIG found that the requirements process, the
acquisition strategy, and satellite availability planning were well defined
and should reduce program risk. We also found, however, that IPO
awarded the contracts for the preliminary design and risk reduction of
the sensors and algorithms for significantly less than its budgeted cost,
largely because of certain inflated factors contained in its life-cycle cost
estimates.

    We recommended that NOAA begin working with the Executive
Committee and IPO as soon as possible to produce new baseline cost,
schedule, and goals that correct the identified life-cycle cost estimating
anomalies. NOAA agreed that its short-term estimates were inaccurate,
but believes that its cost estimating difficulties are not related to its long-
term estimates. (Office of Systems Evaluation: OSE-9593)

Additional Cost Reductions Identified
for Proposed Goddard Facility
    Since 1991 NOAA has been planning to build a world class science
center that would consolidate certain operations and research functions
of NWS’s National Centers for Environmental Prediction and the
National Environmental Satellite, Data, and Information Service. These
NOAA components are currently located at the World Weather Building
in Camp Springs, Maryland, and Federal Building 4 (FB-4) in Suitland,
Maryland. NOAA’s latest requirements analysis, completed in May
1997, called for a 365,000-square-foot facility, designed to house nearly
1,300 personnel, at a cost of $97.6 million. NOAA wanted to construct
the facility, called the Operations and Research Center, at the National
Aeronautics and Space Administration’s Goddard Space Flight Center in
Greenbelt, Maryland.

    An OIG audit of plans to build the Goddard center found that the
project’s justification did not provide convincing evidence of the need to
consolidate the two environmental prediction components to improve
productivity or efficiency of operations. In addition, SSMC-1 had
sufficient vacant space to accommodate the staff and equipment of the


September 1998                             Commerce IG Semiannual Report          47
National Oceanic and Atmospheric Administration


                       World Weather Building, and GSA had determined that earlier environ-
                       mental problems with SSMC-1 had been fixed and that it was safe for
                       occupancy.

                           We were not opposed to constructing a Goddard facility, but
                       believed that NOAA could have significantly reduced the cost by
                       reexamining its staffing projections and the amount of raised-floor space
                       and the floor loading capacity it needs for automated data processing
                       equipment. We were planning to recommend that NOAA (1) reexamine
                       SSMC-1 as a possible site, (2) reduce the square footage of the proposed
                       Goddard facility by using supportable staff projections, and (3) reduce
                       the raised floor space and floor-loading requirements. These actions
                       would have resulted in tens of millions of dollars in savings.

                           NOAA was proposing to finance construction through direct appro-
                       priations. However, because the Congress did not appropriate FY 1998
                       funding for an architectural and engineering study and directed that
                       planning efforts be suspended, NOAA is no longer pursuing the project.
                       Thus, our planned recommendations dealing with reducing the size and
                       cost of the facility could not be implemented, and we did not include
                       them in our report. Nevertheless, should the Congress provide future
                       funding for the facility, NOAA will need to consider the ways to reduce
                       the size and cost of the facility that were identified in our report.

                            Although the facility project is no longer being pursued, NOAA
                       commented on some of our findings. Specifically, it claimed that we
                       failed to consider information concerning serious infrastructure problems
                       and threats to personal security at the World Weather Building and FB-4.
                       Although we agree that the infrastructure of the buildings is dated, we
                       found no evidence that it posed a threat to operations. Moreover, despite
                       NOAA’s concerns about security problems, it was unable to provide any
                       documentation substantiating its concerns. NOAA did not comment on
                       the issue of reevaluating SSMC-1 as a possible site for World Weather
                       Building staff because it plans to keep the staff in their current location.
                       (Science and Technology Audits Division: NAD-9574-8-0001)

                       New Supercomputer to Be Located at
                       Federal Building 4 in Suitland, Maryland
                           The OIG conducted an audit of NOAA’s proposal to locate a new
                       Class VIII supercomputer at the Goddard Space Flight Center in
                       Greenbelt, Maryland, where it also proposed to build its new Operations
                       and Research Center (see page 47). NOAA wanted to install the Class
                       VIII in Building No. 28 at Goddard, rather than FB-4 in Suitland,


48                     Commerce IG Semiannual Report                             September 1998
                                  National Oceanic and Atmospheric Administration


Maryland, where its current Class VII supercomputer is located, because
the bureau’s cost proposal indicated that it would be less expensive to do
so. The Class VII, which is used exclusively by the National Weather
Service and is critical to its mission of protecting life and property, is
about five years old, and its lease will expire in February 1999. The
Class VIII, the next generation of supercomputers, will provide NWS
with continuous on-line weather information.

     The OIG audit found that FB-4 and Goddard were the only federal
sites in the Washington, D.C., area that could accommodate the
supercomputer. We also found that NOAA’s time line for making the
transition to the Class VIII was reasonable. NOAA awarded the contract
for the supercomputer on October 9, 1998, and hopes to have it fully
operational by August 1, 1999.

     However, NOAA’s comparison of the costs of locating the super-
computer at Goddard versus FB-4 was flawed because it overestimated
the total life-cycle costs of the FB-4 site by as much as $1.1 million.
Although the initial installation costs at FB-4 are higher, its leasing,
renovation, and maintenance contract costs are lower. As a result, we
estimate that NOAA could save about $780,000 over five years by
locating the supercomputer at FB-4. That building has adequate space
and infrastructure to house the supercomputer once upgrades are made to
the electrical and cooling systems. And we found no evidence, based on
an assessment made by GSA at our request, that the electrical upgrades
will necessitate the removal of asbestos, as NOAA originally thought.

    After we completed our field work, NOAA advised us that it was
suspending its planning efforts for a new Operations and Research
Center because of a lack of FY 1998 funding, and was now focusing on
FB-4 as the site for the Class VIII supercomputer. We recommended that
NOAA take the necessary actions to initiate installation of the Class VIII
supercomputer in FB-4.

    Although NOAA agreed with our recommendation to locate the
supercomputer at FB-4, it did not agree with the attendant findings on
costs associated with the infrastructure, including space, asbestos, and
equipment. NOAA also stated that it has engaged GSA in discussions
concerning adequate facility support to ensure the continuous operation
of the supercomputer during the transition, including the provision of
backup electrical and cooling systems until upgrades can be completed.
These discussions are to be finalized in a memorandum of
understanding. (Science and Technology Audits Division: STD-10925-8-
0001)


September 1998                          Commerce IG Semiannual Report          49
National Oceanic and Atmospheric Administration


                       NMFS Should Divest Itself of
                       the Seafood Inspection Program
                            The National Marine Fisheries Service’s (NMFS) voluntary, fee-for-
                       service seafood inspection program, operated by the Inspection Services
                       Division (ISD), provides quality assurance services to approximately
                       2,200 fishery product companies through both in-plant quality assurance
                       testing and product lot inspections and certifications. In 1995 ISD
                       estimated that it inspected more than 1 billion pounds of seafood products,
                       representing about 23 percent of the fishery products consumed in the
                       United States.

                            A new inspection methodology, the Hazard Analysis Critical Control
                       Point (HACCP), was developed during the 1980s. NMFS instituted its
                       own HACCP-based system in 1992. HACCP reduces the need for ongoing
                       inspections and allows the processor to monitor its own operations, while
                       inspectors periodically ensure compliance. Under the HACCP program, a
                       plant needs only 480 hours of inspection services during the first year, and
                       potentially as few as 116 hours annually in later years. The full in-plant
                       inspection program requires 2,080 hours or more annually. NMFS reports
                       that many plants have converted from ongoing inspections to the new
                       system, creating a shortage of revenue that contributed to financial losses
                       for the program. ISD’s losses for FY 1994-97 were more than
                       $1.7 million.

                            Several years ago, NOAA and the Department were proposing to
                       convert ISD to a performance-based organization. In December 1996, the
                       OIG informed NMFS of several deficiencies that needed to be corrected
                       before the proposed PBO was established (see March 1997 issue, page
                       50). Since then, discussions have taken place between NOAA and officials
                       of the Food and Drug Administration regarding the establishment and
                       transfer of the proposed PBO to that agency.

                           In response to a request from NOAA’s Assistant Administrator for
                       Fisheries, the OIG conducted an audit of ISD’s operational and financial
                       management. As a result of our review, we reached two primary
                       conclusions:




50                     Commerce IG Semiannual Report                              September 1998
                                    National Oceanic and Atmospheric Administration


l       NMFS should divest itself of the seafood inspection program.
        The program has little, if any, relationship to NMFS’s other
        responsibilities and functions, and would be better privatized or
        placed within another federal or state agency. A voluntary
        program to determine the quality of seafood by inspecting,
        measuring, testing, and certifying its wholesomeness is not an
        inherently governmental function. We recommended that NOAA
        propose legislation to immediately divest NMFS of ISD.

l       ISD should correct program mismanagement. This
        mismanagement has resulted in large fund losses, misdirection
        of efforts, and a serious lack of control over internal functions.
        Specific management deficiencies were observed in the areas of
        training policies, services and payments, and foreign travel and
        billing. We recommended that, until the division is divested,
        NOAA require that ISD set rates so that it recovers full costs;
        eliminate foreign travel that is not fully reimbursed; follow
        established policies for billing and travel; and ensure that
        adequate contractual procedures are followed for all training
        services.

    NOAA agreed with our recommendations that NMFS divest itself of
the seafood inspection program and recover full costs until that point.
(Seattle Regional Office of Audits: STL-9607-8-0001)

Management Improvements Needed
in NMFS Enforcement Office
     The OIG conducted an audit of the National Marine Fisheries
Service’s Office of Law Enforcement to evaluate its operations and its
coordination efforts with related agencies. The mission of the
enforcement office is to achieve an acceptable level of compliance with
statutes and regulations affecting the living marine resources and marine
habitat of the nation. To accomplish its mission, the office conducts
investigations, patrols, and inspections throughout the United States and
its territories, and on the high seas; engages in public outreach to
increase understanding of marine laws; provides coordination and
support to states, tribes, and territories enforcing regulations that protect
marine resources; and provides training to other federal and state officers
who participate in fisheries enforcement.

    During our review, the enforcement office was implementing
numerous management improvements. However, we identified several
areas where additional improvements are warranted. For example,


September 1998                            Commerce IG Semiannual Report          51
National Oceanic and Atmospheric Administration


                       (1) NMFS needs to provide the office with more specific policy guidance
                       to assist it in addressing its goals and objectives and allocating its
                       resources, (2) the office should establish more specific performance
                       measures, and (3) a recent office-sponsored “role and deployment” study
                       did not evaluate all options due to planning constraints placed on the
                       study.

                            We recommended that NMFS develop specific agency priorities and
                       outcome-related goals for the enforcement office for FY 1999. We also
                       recommended that NMFS direct the enforcement office to develop
                       performance measures for FY 1999 that link strategic goals, resources,
                       and daily activities; evaluate the impact of the predetermined constraints
                       on the role and deployment study and determine if they are appropriate
                       before implementing its recommendations; and initiate a deployment
                       staffing plan that includes all 164 personnel for FY 1999.

                          NOAA agreed with our findings and recommendations. (Seattle
                       Regional Office of Audits: STL-9835-8-0001)

                       OAR Needs Additional Management
                       Processes to Meet the Intent of GPRA
                           The Office of Oceanic and Atmospheric Research (OAR) conducts
                       and directs NOAA research programs in coastal, marine, and
                       atmospheric sciences through its own laboratories and offices, networks
                       of university-based programs throughout the country, and international
                       activities. OAR has three major components: Environmental Research
                       Laboratories, the National Sea Grant College Program, and the National
                       Undersea Research Program.

                           We reviewed OAR’s managerial organization to determine if its
                       current systems and processes meet the intent of the Government
                       Performance and Results Act of 1993. We identified three areas where
                       the current structure is inadequate and developed guidelines for OAR to
                       use in developing the necessary systems and processes. Specifically:

                       l       OAR has no strategic plan to clarify its mission, goals, and
                               objectives; to formally communicate agency priorities to the
                               field level; and to use as a basis for resource allocation plans.
                               Several attempts to create a plan failed because formal strategic
                               planning has not been an OAR priority. Sound management
                               practices, as embodied in GPRA, require agencies to use a
                               strategic planning process.



52                     Commerce IG Semiannual Report                            September 1998
                                 National Oceanic and Atmospheric Administration


l       OAR needs to integrate its budgeting process with a strategic
        planning process. This will allow the agency to comprehensively
        analyze its planning goals and funding needs, and present a
        clearer picture of its operations. Currently, OAR develops its
        budget in response to the NOAA planning and budget process. A
        compre-hensive, integrated approach to planning and budgeting
        will result in a more complete description of how OAR’s goals
        and objectives are to be achieved and how it can meet the intent
        of GPRA.

l       OAR lacks a unified management information system to
        evaluate project performance. Such a system is necessary to
        allow managers to more effectively define and communicate
        project objectives, report on progress, and track resource
        expenditures.

     We made recommendations to OAR for establishing the needed
systems and the links between them. NOAA concurred with our
recommendations and stated that it plans to implement them through (1)
its strategic plan reporting system, (2) improved crosswalks between
NOAA’s strategic planning structures and OAR’s program structure, and
(3) better strategic plan linkages in the budget development process.
(Seattle Regional Office of Audits: STL-8519-8-0001)

As Sea Grant Program Changes,
Administrative Improvements Needed
    The National Sea Grant College program is designed to address
marine and coastal issues and practical problems by applying both the
natural and social sciences and by transferring technology. The program,
established in 1967, provides annual “umbrella” grants to 29 primary
member universities, which in turn manage projects at more than 300
educational institutions. Sea Grant is a cost-sharing program, with the
primary universities contributing one-third of the total cost of the
project. During FY 1997, these universities received $52 million in
federal sea grant funding, provided $32 million in matching funds, and
accepted another $10 million in pass-through funds, which are provided
by NOAA line offices or other federal agencies. The program is
administered by a 17-person National Sea Grant Office (NSGO) in OAR.

    After initiating an inspection of the Sea Grant program, the OIG
found that widespread changes were underway, as NSGO was
implementing a number of recommendations of a 1994 National
Research Council (NRC) study. Therefore, we focused our review on


September 1998                         Commerce IG Semiannual Report          53
National Oceanic and Atmospheric Administration


                       certain administrative issues, and postponed a full-scale review until the
                       agency was further along in implementing the NRC recommendations.
                       Our observations and recommendations included:

                       l       Sea Grant program is making progress in implementing
                               NRC recommendations. As a result of the NRC study, NSGO
                               is shifting its efforts away from a project selection role to a more
                               results-oriented review of the program. While implementing this
                               and a number of other NRC recommendations, NSGO has
                               undergone a 26-percent reduction in staff. We question whether
                               NSGO will be able to fulfill its oversight responsibilities under a
                               five-percent cap on administrative expenses and are concerned
                               that its diminished role could result in NSGO’s abdicating its
                               responsibility to ensure that program funds are spent
                               appropriately and directed to NOAA’s overall objectives.

                       l       Marine extension program should benefit from the new
                               results-oriented program review process. A NSGO evaluation
                               process is underway to look at “best practices” across all the sea
                               grant universities. NSGO needs to ensure that the evaluation
                               focuses on the effectiveness of marine extension programs, and
                               recommends improvements at the sea grant universities whose
                               organizational arrangements and techniques have not been
                               identified as being the most effective.

                       l       Improved coordination between the Sea Grant program and
                               other line offices must become a NOAA priority. Sea Grant
                               needs to be more deeply involved in bringing scientific talent
                               from the universities to bear on the management problems of the
                               nation’s coastal areas and adjacent oceans. To accomplish this,
                               more effective coordination is needed between Sea Grant and the
                               NOAA line offices devoted to resource management—the
                               National Ocean Service and NMFS.

                       l       Grant processing workload can be better managed. Because
                               all 29 sea grant awards are made on February 1 or March 1,
                               NOAA’s grants management division (GMD) and NSGO must
                               process all sea grant university proposals from November
                               through February, with much of the division’s work having to be
                               completed during the December-January holiday season. For
                               better management of the grants processing workload, grants
                               need to be received by NSGO on time, properly reviewed, and
                               forwarded to GMD on a staggered basis.




54                     Commerce IG Semiannual Report                             September 1998
                                 National Oceanic and Atmospheric Administration


l       GMD’s oversight role needs to be strengthened. Each sea grant
        award is a four-year grant that covers numerous university
        projects, is often amended to include new projects, and draws on
        multiple funding sources. As a result, it is difficult for NSGO and
        GMD to track the obligation of funds from the multiple sources to
        the individual projects. NSGO must take steps to ensure that the
        sea grant universities are spending Sea Grant program and pass-
        through funds appropriately. Possible steps to strengthen oversight
        include issuing pass-through funds as separate grants and including
        GMD staff on the topical assessment teams.

l       Policy on grantee matching funds needs to be clarified. A sea
        grant proposal must identify how its nonfederal share will be met.
        NSGO, however, has no written policy on the nonfederal match
        and does not provide a convenient summary of matching
        information. As a consequence, it is difficult to determine whether
        match requirements have been properly met. To ensure a more
        accurate, traceable recording and accounting for matching funds,
        NSGO should issue written guidance clarifying its matching policy.

    In both its response to our report and its recently submitted action
plan, NOAA has cited actions taken or planned that will satisfy seven of
our eight recommendations. For an eighth recommendation, regarding
pass-through funds, OAR has proposed to conduct an analysis of steps to
be taken to strengthen oversight of these funds. (Office of Inspections and
Program Evaluations: IPE-10150)

Further Changes Needed to Improve
NMFS’s Agreement Procedures
    The National Marine Fisheries Service’s mission is to build sustainable
fisheries, recover protected species, and sustain healthy coasts. To
accomplish its mission, NMFS undertakes special projects, reimbursable
activities, and programmatic efforts with other governmental and non-
governmental entities. The agency frequently employs interagency and
other special agreements to formalize the terms of these arrangements.

    We examined 49 out of 243 NMFS agreements as part of an OIG
Department-wide review of interagency and other special agreements.
Unlike our reviews of other bureaus’ agreements, however, we did not
evaluate NMFS’s financial, managerial, and programmatic oversight of
agreements because new policies and procedures for agreements were
being implemented by NOAA at that time. NOAA issued its final guidance
for NMFS agreements on January 28, 1998, in response to a previous


September 1998                           Commerce IG Semiannual Report        55
National Oceanic and Atmospheric Administration


                       audit we performed (see September 1995 issue, page 54). NMFS and the
                       Department’s Office of General Counsel reported notable improvements to
                       the agreements that were prepared after the draft guidance was issued in
                       June 1997.

                            Since the new guidance was not fully implemented at the time of our
                       review, we limited the scope of our inspection to determining (1) the
                       appropriateness and advisability of the agreements as funding mechanisms
                       for specific projects, (2) the extent to which NMFS offices are supported
                       through and rely on these agreements, (3) the relevance of these
                       agreements to departmental goals and objectives, and (4) the degree to
                       which any of these agreements may have circumvented procurement or
                       financial assistance regulations.

                            We supported NMFS’s new guidance for the review and clearance of
                       interagency agreements and memorandums of agreement or understanding.
                       However, we found several problems in existing agreements that need to
                       be addressed:

                       l       Legal review requirements are unclear and not periodically
                               evaluated.

                       l       NMFS does not always recover full costs.

                       l       More than a dozen agreements do not cite legal and/or funding
                               authority.

                       l       Four agreements are invalid because they lack authorizing
                               signatures.

                       l       Eight agreements are not regularly reevaluated.

                       l       The duration of agreements is not always defined.

                       In addition, NMFS does not maintain a comprehensive database or
                       tracking system for its agreements.

                            We recommended that NOAA (1) regularly monitor the effectiveness
                       and efficiency of NMFS’s guidance on agreements, including conducting a
                       comprehensive review one year from implementation of the new guidance,
                       to ensure that adequate management controls are in place, (2) in consul-
                       tation with OGC, revise NMFS’s guidance to clarify which agreements
                       require legal review and clearance, (3) in coordination with OGC, evaluate
                       the full impact of the OGC review process and thresholds no more than


56                     Commerce IG Semiannual Report                             September 1998
                                 National Oceanic and Atmospheric Administration


one year from implementation, and revise those thresholds as necessary,
(4) amend NMFS’s current guidelines to ensure that agreements are
reviewed, at least every three years, to determine whether they should be
revised, renewed, or canceled, and (5) develop a centralized database of all
NMFS agreements.

     NMFS agreed with our findings and noted that some of the
recommendations will be resolved as a matter of course by continuing its
implementation of the newly developed policy and procedures on
interagency agreements, while others will be the focus of an action plan to
be developed in response to our report. In addition, OGC agreed with the
majority of our findings and recommendations. (Office of Inspections and
Program Evaluations: IPE-10775)

OAR Agreement Practices
Require Additional Improvements
    As part of our review of interagency and other special agreements, we
also reviewed 99 out of 506 agreements finalized by the Office of Oceanic
and Atmospheric Research from June 1996 to September 1997. Agree-
ments are one method for OAR to formalize relationships through which it
shares information, provides needed services, or coordinates its programs
with other federal agencies and non-federal organizations in fulfilling its
mission.

    The purpose of our inspection was to evaluate policies, procedures,
and practices being followed at OAR headquarters and field locations in
carrying out the agency’s responsibilities under these agreements. Overall,
we found that OAR does appropriately use agreements to support its
mission. Procedurally, OAR has made some improvements in how it
prepares, reviews, approves, and administers agreements. However,
additional changes are needed to comply with federal, departmental, and
agency guidance.

     Specifically, we recommended that OAR develop policies and
procedures for preparing and processing agreements that are consistent
with forthcoming departmental guidance. In addition, formal procedures
should be developed to notify other agencies of what terms are required in
OAR agreements and to modify or amend incomplete agreements. Once
the policies and procedures are finalized, OAR should provide training to
all appropriate staff on how to properly prepare and process agreements.
We also recommended that OAR, in consultation with OGC, draft policies
and procedures for obtaining legal review of its agreements. In addition,



September 1998                            Commerce IG Semiannual Report        57
National Oceanic and Atmospheric Administration


                       OAR should develop (1) standard language or form agreements for use by
                       its programs, and (2) a centralized database of all of its agreements.

                            NOAA concurred with our findings and recommendations and noted
                       that, in some cases, OAR has taken preliminary steps to develop policies
                       and procedures for preparing and processing its agreements and to work
                       with OGC to outline guidelines for legal review of the agreements. (Office
                       of Inspections and Program Evaluations: IPE-10310)

                       West Virginia Awardee Needs to Improve
                       Its Handling of Indirect Costs
                           In March and May 1998 (see March 1998 issue, page 47, and this
                       issue, page 21), we provided audit reports to NOAA and EDA,
                       respectively, describing inadequacies we found in the accounting and
                       financial management system of a West Virginia foundation, which
                       prevented us from negotiating an indirect cost rate for FY 1997. Instead,
                       we audited the foundation’s actual indirect costs and their allocation to its
                       various cost centers.

                           In July 1997, NOAA and the foundation agreed to terminate their
                       cooperative agreement for the convenience of both parties. The foundation
                       submitted its termination settlement proposal to NOAA in September
                       1997. At NOAA’s request, we are also auditing the foundation’s cost
                       claims, including its termination settlement claim, and will report our
                       findings later.

                           Our audit of the foundation’s indirect costs found that the organization
                       did not identify, as a separate cost center, affiliate services (such as per-
                       sonnel, printing, and postage) that it provides to its members. Instead, the
                       expenses related to such services were being inappropriately accumulated
                       as part of the indirect cost pool, resulting in an overcharge to federal
                       agencies. We questioned more than $110,000 of the indirect cost pool, and
                       determined that the foundation owes the government about $166,000 for
                       unallowable or unallocable costs.

                            We recommended that NOAA require the foundation to establish
                       affiliate services as a separate cost center, allocate to this center its fair
                       share of indirect costs, and refund to the appropriate federal agencies the
                       $166,000 in excess indirect costs claimed for FY 1997. (Atlanta Regional
                       Office of Audits: ATL-10792-8-0001)




58                     Commerce IG Semiannual Report                                September 1998
                                  National Oceanic and Atmospheric Administration


Financial Expertise Needed to
Improve Personal Property Reporting
    Because Property, Plant, and Equipment is the largest account on
NOAA’s balance sheet, representing nearly 65 percent of the bureau’s total
assets as of September 30, 1997, it is imperative that adequate resources
are devoted to this account. NOAA’s personal property team, composed of
about 10 employees, is responsible for ensuring that all accountable and
capitalizable personal property is accurately reported in the National
Finance Center database, where NOAA maintains its personal property
data. However, NOAA has received disclaimers in each of its past audits in
part due to unsupported property balances, and its lack of adequate
controls over property has been deemed a material weakness.

     An OIG limited-scope audit of NOAA’s capitalized personal property
files disclosed that the bureau had made a significant effort to improve its
accounting for and reporting of personal property, and that it had begun to
take the steps needed to effectively track and account for capitalizable
personal property. However, we identified two areas where further
improvements are needed:

l       Financial manager is needed for NOAA’s personal property
        team. Staff on the personal property team are trained in acquiring
        and maintaining physical accountability for personal property, but
        none of them has the experience to account for personal property
        in accordance with applicable accounting standards. Given the
        importance of personal property accountability and the complex
        accounting issues that NOAA faces on a daily basis, we
        recommended that the bureau either hire a full-time accounting or
        financial manager or use a contractor or personnel from its finance
        office to help compile property data for the financial statements.

l       Capitalization and bulk purchase thresholds needed
        attention. We found that by using the Department’s $25,000
        capitalization threshold, the personal property team was expending
        more than 75 percent of its effort to account for less than
        7 percent of its property, in terms of acquisition value. Moreover,
        NOAA did not have a specific bulk purchase policy to capitalize
        significant acquisitions of property and equipment items
        individually costing less than the capitalization threshold.




September 1998                            Commerce IG Semiannual Report        59
National Oceanic and Atmospheric Administration


                            NOAA agreed with our observations and recommendations, stating
                       that corrective actions will be taken. In particular, NOAA has (1) obtained
                       a departmental waiver to implement a $200,000 capitalization threshold
                       and (2) used our analysis to establish a bulk purchase threshold of
                       $1 million. While supporting NOAA’s actions, we also recommended that it
                       issue written policies and procedures concerning the thresholds and
                       provide training on applying them. (Financial Statements Audits Division:
                       FSC-10875-8-0001)

                       NOS Should Further Expand Use of Alternative
                       Methods in Its Hydrographic Survey Program
                           As a follow-up evaluation to our 1996 review of NOAA’s fleet
                       replacement and modernization plan, which concluded that private
                       contractors could begin accommodating the bureau’s hydrographic needs
                       (see March 1996 issue, page 43), we reviewed the National Ocean
                       Service’s activities and strategies for building an effective partnership with
                       private sector hydrographic survey firms and ensuring the quality of survey
                       data collected under contracts by those companies.

                           We found that NOS has begun to more actively engage the private
                       sector hydrographic surveying community in an attempt to better examine
                       how best to perform its mission of promoting safe navigation. In addition,
                       we are encouraged by many of the steps NOS has pledged to take during
                       the next year, as it prepares to complete a long-term hydrographic data
                       acquisition plan by April 1, 1999. Likewise, we are pleased that NOS has
                       recently awarded several contracts for hydrographic survey data.

                            Because of the progress over the last year and NOS’s planned actions
                       in the coming year, we made no recommendations. However, we
                       encouraged NOS to continue to explore and expand its use of alternative
                       methods, including contracts for data, to meet its nautical charting needs
                       and reduce its survey backlog. In addition, the critical issue that NOS must
                       address as it develops its long-term plan is how best to maintain the in-
                       house expertise necessary to ensure the quality of hydrographic data. We
                       believe that there are alternative ways for NOS to provide the quality
                       assurance necessary to contract for data without retaining its current level
                       of in-house resources. (Office of Inspections and Program Evaluations)




60                     Commerce IG Semiannual Report                               September 1998
                                  National Oceanic and Atmospheric Administration


Former Employee Convicted
of $70,000 Imprest Fund Theft
    A former NOAA budget analyst was convicted of theft after an OIG
investigation confirmed that she had obtained more than $70,000 from
various departmental imprest funds by submitting a series of fraudulent
claims for reimbursement of small purchase and travel expenses. In August
1998, she was sentenced in U.S. District Court for the District of
Columbia to six months’ imprisonment and three years’ probation, and
was ordered to make restitution of $73,767 to the government. (Silver
Spring Field Office of Investigations)

Audit Reports Unresolved for Over Six Months
    As of September 30, 1998, one performance audit report, two
financial assistance audit reports, and two preaward contract audit reports
had recommendations unresolved for more than six months.

NMFS Laboratory Structure

     The performance audit report, NMFS Laboratory Structure Should Be
Streamlined, STL-8982-8-0001 (see March 1998 issue, page 39) identified
several opportunities for NMFS to streamline its field structure. Speci-
fically, we recommended closing six laboratory facilities and transferring
their programs and personnel to other NMFS laboratories. In another
instance, we recommended that a laboratory and most of its programs be
transferred to the State of Maryland. We also recommended that the
proposed Santa Cruz, California, facility be expanded to accommodate
programs and personnel from another of the California laboratories. In
addition, we disagreed with NMFS’s plans to transfer some programs from
a Seattle laboratory to the proposed Auke Cape facility in Alaska. NOAA
disagreed with our findings and recommendations. We have discussed
alternatives for audit resolution with NOAA, and we are awaiting a revised
audit action plan.

University of Hawaii

    This financial assistance audit report, ATL-9999-5-0753 (see
September 1995 issue, page 99) was an OMB Circular A-133 audit that
questioned $1.1 million of claimed costs. We provided comments on
NOAA’s draft audit resolution proposal in January 1998 and are now
awaiting its response.




September 1998                            Commerce IG Semiannual Report        61
National Oceanic and Atmospheric Administration


                       Northeastern Coastal Zone Management Project

                           The second financial assistance audit report, ATL-10278-8-0001 (see
                       March 1998 issue, page 43) covered the two-year performance period of a
                       cooperative agreement with a Northeastern state to assist in the
                       development and implementation of a coastal zone management program.
                       We concluded that the state did not accurately and completely report its
                       federal expenditures and cash disbursements to NOAA. The report also
                       questioned $48,275 in claimed costs, and recommended deobligating the
                       remaining $26,465 in award funds. We are awaiting NOAA’s response.

                       Preaward Contract Audit Reports

                           The two preaward contract audit reports are discussed on page 82.




62                     Commerce IG Semiannual Report                           September 1998
          National Telecommunications
         and Information Administration

Supporting Documentation Lacking for Costs                                     The mission of the National
Claimed Under Telecommunications Grant                                         Telecommunications and
                                                                               Information Administration is to
    In September 1995, NTIA awarded a $225,000 grant to a nonprofit            (a) serve through the Secretary of
organization that provides advocacy and direct services to people with         Commerce as the principal
                                                                               executive branch advisor to the
certain disabilities. The grant agreement required about $372,000 in
                                                                               President on domestic and
matching funds, bringing the total project budget to almost $600,000. As       international communications and
of October 1996, the end of the project period, the total cost claimed was     information policies, (b) ensure
more than $612,000, and the total federal amount disbursed was nearly          effective and efficient federal use
$225,000.                                                                      of the electromagnetic spectrum,
                                                                               (c) develop with other federal
     The purpose of the grant was to provide funding for an experimental       agencies policies for international
telecommunications network, which was to be implemented with the               communications and standards-
assistance of six contractors approved in the award agreement. The project     setting organizations, (d) serve as
consisted of establishing a disability information bulletin board network      the federal telecommunications
                                                                               research and engineering center,
with sites in Alaska, Colorado, Iowa, Maine, Nebraska, and North
                                                                               and (e) administer grants under
Carolina.                                                                      the Information Infrastructure
                                                                               Grants Program and the Public
    By the end of the project period, the grantee had enlisted only about      Telecommunications Facilities
half of its goal of 6,000 subscribers. Based on the high cost per subscriber   Program.
and various other factors, NTIA officials concluded that the project was
not a good choice for replication, and grantee officials decided that such a
network could be better achieved by partnering with existing Internet
service providers.

    An OIG audit disclosed that the grantee’s financial management
system did not comply with federal standards in that it did not provide                           NTIA
adequate assurance that only reasonable, allowable, and allocable costs
were claimed. Largely because of this, we questioned about $298,000 in                                            Policy
project costs, attributable primarily to a lack of supporting documentation       Spectrum
                                                                                                               Analysis and
                                                                                 Management
for more than $273,000 in contract costs. We also questioned certain                                           Development

indirect, equipment, and travel costs. We recommended that the
Department disallow the questioned costs and recover about $106,000 in          Telecom. and                   Institute for
                                                                                 Information                    Telecom.
excessive grant disbursements.                                                  Applications                    Sciences

    In response to our findings, the grantee contended that the contracted
                                                                                               International
work was performed and that the price paid was reasonable, but did not                            Affairs
provide any additional documentation to support the questioned costs.
(Atlanta Regional Office of Audits: ATL-10378-8-0001)




September 1998                            Commerce IG Semiannual Report                                                        63
                                      Patent and
                                      Trademark Office

The Patent and Trademark Office
                                      Effectiveness of Appeal Process Threatened
administers the nation’s patent and   by High Inventory and Inadequate Monitoring
trademark laws. Patents are
granted, and trademarks                    PTO’s Board of Patent Appeals and Interferences decides appeals
registered, under a system            from adverse decisions of patent examiners concerning applications for
intended to provide incentives to
                                      patents and makes determinations concerning interferences, which are
invent, to invest in research, to
                                      questions concerning the priority of invention and patentability. The
commercialize new technology,
and to draw attention to inventions   board’s administrative judges may affirm or reverse an examiner’s decision
that would otherwise go unnoticed.    or remand the application for further consideration. The board had
PTO also collects, assembles,         43 patent judges and 40 support personnel at the end of FY 1997, and had
publishes, and disseminates           an FY 1998 operating budget of about $9.5 million.
technological information disclosed
in patents.                               In a performance audit of the board’s operations, we found two major
                                      areas of concern:

                                           High inventory has resulted from productivity and staffing
                                      problems. In the past five years, the number of pending appeal and
                                      interference cases at the board has increased by more than 350 percent—
                                      from 2,668 to 9,649, an average increase of almost 1,400 cases per year
                                      (see graph below). The growing caseload is attributable primarily to patent
                                      judges’ not maximizing their productivity, declines in the quality of
                                      decisions appealed to the board, unclear case review policies, and
                                      inadequate resource planning. Despite recent initiatives to combat the
                                      growing inventory, the effectiveness of the appeals process is threatened,
                                      posing a greater risk of patent infringement. PTO needs to (1) develop a
                                      strategy to reduce the inventory to a manageable level within five years,


                                                                   Inventory of Pending Patent
                                                                    Appeals and Interferences
                                          No. of Pending Appeals




                                                                   10000
                                            and Interferences




                                                                    8000

                                                                    6000

                                                                    4000

                                                                    2000

                                                                       0
                                                                       1993   1994      1995        1996   1997
                                                                                     Fiscal Years



64
                                                                       Patent and Trademark Office


(2) clarify its case review policies, (3) pursue the planned hiring of
additional judges, and (4) develop a professional track for examiners to                    Patent and
become judges.                                                                              Trademark
                                                                                              Office
    Case monitoring has been inadequate. The board is not adequately
                                                                                   Assistant            Assistant
tracking and assigning cases or maintaining a reliable filing and retrieval      Commissioner        Commissioner
system. As a result, the board’s ability to manage its workload efficiently       for Patents        for Trademarks
and effectively is being compromised. The board needs to (1) process all
cases on a first-in, first-out basis and develop a rationale for assigning new    Associate                 Chief
                                                                                 Commissioner            Information
cases and (2) conduct an annual physical inventory of case files, giving the       and CFO                  Officer
highest priority to active cases and archiving inactive ones. These and
other factors led us to conclude that the board should hire a Chief
Administrator to better manage its workload.

     In response to our report, PTO agreed to or has initiated action
consistent with 12 of the report’s 16 recommendations. PTO has begun to
address many of the issues cited in the report through the creation of the
Board of Patent Appeals and Interferences Strategic Plan, which outlines
several strategies to reduce the high inventory and eliminate other risks that
threaten the effectiveness of the appeal process. PTO recently informed us
that the inventory was slightly reduced during FY 1998. However, signifi-
cant reductions will result only if PTO implements the recommendations.
(Business and Trade Audits Division: BTD-10628-8-0001)

Complaints Against Practitioners
Must Be Investigated More Expeditiously
    PTO regulates the recognition and ethical conduct of individuals
practicing before it. Although only attorneys can practice in trademark
cases, patent practitioners may be either attorneys or non-attorneys, called
agents. The Office of Enrollment and Discipline (OED) was created in
1985 to administer the rules for admission to practice before PTO. OED’s
responsibilities include (1) determining the qualifications of individuals
applying for registration to practice before PTO, (2) administering the
examination for registration and maintaining a roster of registered
practitioners, and (3) investigating complaints of unethical conduct by
practitioners and taking disciplinary action when appropriate. OED has
seven full-time and one part-time staff plus three vacant positions.

    In an audit conducted to evaluate OED’s effectiveness and to identify
any factors that might be affecting its performance, the OIG found that
complaints against PTO practitioners are not pursued expeditiously
enough. The number of completed OED investigations declined from 45 in
FY 1995 to 4 in FY 1997. By the end of 1997, the inventory of pending
complaints and investigations was 296, up from 145 at the end of 1995.

September 1998                             Commerce IG Semiannual Report                                               65
Patent and Trademark Office


                           The delays in pursuing violators are caused primarily by the tremen-
                       dous growth in the enrollment workload, which has “crowded out” much
                       of OED’s discipline work in recent years. This workload growth is being
                       driven by the rising number of candidates who take the registration exami-
                       nation. Since 1986, that number has increased from 722 to 3,162, while
                       the number of OED enrollment staff—three—has remained the same.

                            We also identified other problems that affect satisfactory program
                       performance. For example, relying on the Solicitor’s Office to prosecute
                       disciplinary cases tends to complicate and prolong OED’s investigative
                       process. In addition, OED’s practice requirements and disciplinary rules
                       have loopholes that allow attorneys disciplined by state bars to continue to
                       practice at PTO. Finally, highly graded OED staff attorneys spend much of
                       their time reviewing test applicants’ technical requirements, a task that
                       does not require legal skills.

                           We recommended that PTO (1) dedicate three personnel to discipline
                       work, (2) immediately fill three vacant OED positions, (3) allow OED to
                       hire an attorney to prosecute disciplinary actions, (4) change its rules
                       regarding attorneys who are disciplined by the states, and (5) assign the
                       review of applicants’ technical qualifications to non-attorneys. PTO has
                       submitted an audit action plan, which we approved, for implementing our
                       recommendations. (Business and Trade Audits Division: PTD-10627-
                       8-0001)

                       New Cost Accounting System Appropriately
                       Considers Reporting Requirements
                            In 1996, PTO hired a contractor to perform an agencywide cost
                       management initiative. The objective of this initiative was to implement an
                       activity-based cost accounting system throughout the bureau. The new
                       cost accounting system was used to provide expenses by program in the
                       “Supplemental Information” section of PTO’s FY 1997 financial
                       statements. Since that time, modifications have been made to the system
                       to enhance the accuracy of the financial data, and provide management
                       with the ability to make key decisions related to setting fees, recovering full
                       costs, and improving customer satisfaction. Data from the cost accounting
                       system will be used to create the FY 1998 financial statements.

                           The OIG conducted an audit of the methodologies used by PTO’s
                       contractor to develop the new cost accounting system. We found that PTO
                       has undertaken a significant effort to develop and implement the system
                       and believe that it has taken the needed steps to begin to effectively
                       identify and manage costs related to its business lines.


66                     Commerce IG Semiannual Report                                September 1998
                                                                         Patent and Trademark Office


     We made recommendations to PTO to enhance the accuracy and
reliability of its financial data, including that (1) new program codes be
linked to activities to facilitate direct input into the cost system, (2) proper
prevention and detection controls be developed and monitored regularly to
validate time and attendance data, (3) procedures surrounding the
implementation and use of the cost accounting system be adequately
documented, and (4) the new system be in compliance with federal and
departmental regulations and guidance. PTO officials have agreed with our
findings and recommendations, and have already taken some corrective
actions. (Financial Statements Audits Division: FSD-10782-8-0001)

Bureau Should Proceed with Consolidation
Project While Emphasizing Cost Containment
    The Acting Inspector General recently testified before the Subcom-
mittee on Transportation and Infrastructure of the Senate Committee on
Environment and Public Works to discuss the OIG’s review of PTO’s plan
to consolidate its facilities and operations and accommodate its future
space requirements (see March 1998 issue, page 54). This space
consolidation project, expected to be one of the largest federal real estate
ventures in the next decade, involves acquiring a new or renovated facility
of more than 2 million square feet in northern Virginia and leasing it for at
least 20 years at a total cost of about $1.3 billion.

     In his testimony, the Acting IG reiterated the review’s conclusion that
the project was justified and that PTO was managing many aspects of it
well. But he also noted that the OIG had found that (1) PTO had not
finalized its space planning, (2) its strategy for “building out” the facility
from a shell to finished form exposed the government to potential cost
overruns and program delays, (3) the roles and responsibilities of PTO and
GSA had not been defined in a memorandum of understanding, and
(4) the Department needed to improve its oversight of the project.

    In the six months since the review’s completion, PTO has taken some
corrective actions to address the OIG’s concerns. Among other things, it
has accelerated its space planning efforts and issued draft space planning
documents, executed a memorandum of understanding with GSA, and
made progress in mitigating the build-out risk. Moreover, the Department
has become much more involved in overseeing the project.

     The Acting IG concluded by stating that although challenges remain,
the greatest risk now lies in delaying the project. It is therefore in the best
interests of the government and the inventing public to proceed with the
consolidated facilities development, while paying close attention to
containing costs. (Office of Inspections and Program Evaluations)

September 1998                              Commerce IG Semiannual Report                         67
                                      Technology
                                      Administration

The Technology Administration
                                      NTIS May Lack Revenues and
serves the needs of technology-       Reserves to Operate in FY 1999
based industry, advocates federal
actions and policies to speed the          The OIG conducted an audit to determine if the National Technical
transfer of technology from the       Information Service, a component of the Technology Administration,
laboratory to the marketplace, and    would have sufficient revenue and cash reserves to cover the cost of its
removes barriers for commer-
                                      operations for FY 1998 and beyond. This issue was initially raised when,
cializing new technologies by
industry. It includes three major     at the request of the Department, we evaluated NTIS’s August 1997
organizations:                        proposal to become a performance-based organization (see September
Office of Technology Policy. OTP      1997 issue, page 52). That evaluation found that NTIS was experiencing
works to raise national awareness     serious financial difficulties to the extent that we questioned whether it
of the competitive challenge,         could remain self-sustaining.
promotes industry/government/
university partnerships, fosters          NTIS operates a central clearinghouse that collects and disseminates
quick commercialization of federal    scientific, technical, and engineering information from international and
research results, promotes            domestic sources. Its operations include three core lines of business:
dedication to quality, increases
                                      clearinghouse operations, FedWorld on-line services, and production and
industry’s access to and partici-
pation in foreign research and        brokerage services for other federal agencies. NTIS is required by law to
development, and encourages the       cover the costs of these lines of business through revenues generated by
adoption of global standards.         the sale of its products and services.
National Institute of Standards
and Technology. NIST promotes              Our review found that because of a decline in sales for its clearing-
U.S. economic growth by working       house products and services, the fees collected no longer are sufficient to
with industry to develop and apply    cover costs. Consequently, NTIS has incurred revenue shortfalls for two
technology, measurements, and         of the past three years. The loss was almost $4 million for FY 1997 and
standards. NIST manages four          over $1.5 million for the first 11 months of FY 1998.
programs: the Advanced Technol-
ogy Program, the Manufacturing
Extension Partnership Program, a           To help eliminate its operating loss, NTIS has developed new products
laboratory-based measurement          and services, raised prices, and taken cost-cutting steps, such as reducing
and standards program, and the        staffing levels and closing one of its warehouses. These steps may help
National Quality Program.             reduce the size of the loss in the short-run; however, we do not believe
National Technical Information        these actions will be effective in the long term because they do not address
Service. NTIS is a self-supporting    the fundamental problems associated with the clearinghouse business. The
agency that promotes the nation’s     decline in sales of its publications is caused by a general decrease in the
economic growth and job creation      number of publications issued by federal agencies, and agencies’ increasing
by providing access to voluminous     use of the Internet to disseminate information at no charge.
information that stimulates
innovation and discovery. NTIS
accomplishes this mission through          While we believe NTIS has sufficient cash reserves to carry it through
two major programs: information       the remainder of FY 1998, we question whether it will have enough cash
collection and dissemination to the   to operate in FY 1999. Yet because it is required by law to provide
public, and information and           clearinghouse services, NTIS cannot simply close its doors when the
production services to federal        money runs out. In a September 1997 memorandum providing our
agencies.                             comments on NTIS’s draft PBO proposal, we recommended that NTIS
                                      senior managers develop a business plan to address the agency’s short- and
                                      long-term program and financial operations. We had been advised,

68                                    Commerce IG Semiannual Report                              September 1998
                                                                         Technology Administration


however, that NTIS officials were unable to agree on a course of action.
Consequently, we believe that the Technology Administration should step
                                                                                        Technology
in to assist the agency in addressing its problems.                                    Administration

     We recommended that TA obtain an independent comprehensive
review of NTIS’s operations with an emphasis on (1) developing a
business plan for NTIS that addresses both its short- and long-term             NIST                    NTIS
financial and business problems, and (2) seeking relief from legislative
mandates as appropriate. This business plan should be completed as soon
as possible to ensure that NTIS will have sufficient funds to pay its                    Technology
liabilities for FY 1999. TA agreed and has arranged for an independent                     Policy
review of NTIS’s operations as we recommended. (Science and
Technology Audits Division: STD-10592-8-0001)

NIST Needs Tighter Controls in
Working with Non-Federal Researchers
    The OIG reviewed NIST’s use of interagency and other special
agreements to encourage and formalize its collaborations with other
parties. We found that NIST has established and maintains a reliable
process, with the necessary policies and procedures, to monitor its
agreements. Specifically, NIST has a comprehensive set of guidelines for
processing agreements and maintains databases of its agreements that
provide such information as party, dollar amounts, and relevant dates.

    In conducting our review, however, we did identify a related issue that
warrants management attention: NIST’s policy of allowing informal short-
term collaborations with non-federal researchers without a signed, written
agreement. We believe that the main risks identified by NIST—protecting
individual property rights, safeguarding proprietary information, and
avoiding liability for personal and property damages—that led to written
agreements for long-term researchers also apply to short-term researchers.
In addition, because NIST does not keep a log or other record of visitors
working without a written agreement, it cannot determine whether it is in
compliance with its own requirement to enter into written agreements with
researchers who stay longer than 10 days.

     We recommended that NIST require its laboratories to document
informal interactions with non-federal researchers where work is
performed in its laboratory facilities without a written agreement. Data
should be collected at the division level and consolidated at the laboratory
level. This additional data should be used by NIST to periodically evaluate
its policy of not requiring formal agreements for these short-term
researchers. NIST agreed with our recommendation. (Office of
Inspections and Program Evaluations: IPE-10854)

September 1998                            Commerce IG Semiannual Report                                        69
Technology Administration


                       Accounting System Surveys and Audits
                       of NIST Financial Assistance Recipients
                            As noted in earlier issues of this report, the OIG has been performing a
                       series of accounting system surveys of first-time recipients of financial
                       assistance awards under NIST’s Advanced Technology and Manufacturing
                       Extension Partnership programs (see, for example, March 1998 issue,
                       page 62). During this semiannual period, key aspects of our work on NIST
                       financial assistance programs involved conducting surveys and audits of
                       the accounting systems of recipients under both programs.

                       Advanced Technology Program

                            During the period, we reported on 11 NIST-requested audits
                       performed pursuant to a memorandum of understanding. We conducted
                       audits of two joint venture partners and nine single recipients. In its effort
                       to improve the financial management of the multibillion-dollar ATP
                       program, NIST requested that we perform seven accounting system
                       surveys and interim cost audits, and four final cost audits of specific
                       cooperative agreements. The cooperative agreements we reviewed
                       averaged about $2 million each. Accounting system surveys and interim
                       cost audits are intended to prevent future problems of noncompliance with
                       the terms and conditions of NIST cooperative agreements. Final cost
                       audits provide information to enable NIST to close out agreements in a
                       timely fashion.

                           The surveys and the interim and final cost audits disclosed only minor
                       costs questioned and adequate compliance with NIST financial require-
                       ments. (Denver Regional Office of Audits: DEN-10689-8-0001, DEN-
                       10831-8-0001, DEN-10904-8-0001, DEN-10912-8-0001, DEN-10922-
                       8-0001, DEN-10941-8-0001, DEN-10975-8-0001, DEN-10981-8-0001,
                       DEN-11020-8-0001, DEN-11085-8-0001, DEN-11087-8-0001).

                       Manufacturing Extension Partnership Program

                           The six surveys reported on during this semiannual period covered
                       projects that had award periods of two to three years, and total estimated
                       costs exceeding $15.3 million, with a federal share that could ultimately be
                       as much as $8.3 million. Five of the surveys identified weaknesses in the
                       recipients’ financial management and accounting systems—most
                       commonly the failure to supply or document matching share funds, to
                       properly claim and document allowable costs, and to implement adequate
                       administrative policies and procedures.



70                     Commerce IG Semiannual Report                                September 1998
                                                                         Technology Administration


    Almost without exception, the recipients concurred with our findings
and agreed to take prompt corrective actions. Identifying these weaknesses
early in the award periods will help prevent future problems and avoid
questioned costs in later audits. (Denver Regional Office of Audits: DEN-
9618-8-0001, DEN-9955-8-0001, DEN-10112-8-0001, DEN-10552-8-
0001, DEN-10632-8-0001, and DEN-10648-8-0001)

Audit Reports Unresolved for Over Six Months
    As of September 30, 1998, there were nine NIST financial assistance
audit reports with recommendations unresolved for more than six months.

    Seven of the nine reports involve joint venture ATP awards,
concerning which we questioned a total of $9.8 million in claimed costs
generally involving transactions by software development companies that
provided licenses, software maintenance and support, or other items from a
commercial product line for use on the projects (DEN-9752-7-0001, DEN-
9760-7-0001, DEN-9767-7-0001, DEN-9774-7-0001, DEN-9776-7-0001,
DEN-9779-7-0001, and DEN-9827-7-0001—see September 1997 issue,
page 50).

    The main issue concerns the valuation of commercial products,
particularly software, that are contributed to a joint venture by one of its
participants. Although we have worked closely with NIST officials to
develop a new rule that affects the valuation of transfers of good and
services between separately owned joint venture members, we have been
unable to reach agreement on the disposition of the questioned costs in
these reports. We will continue to work with NIST officials to resolve these
reports.

    Another joint venture ATP award audit disclosed that a New York
corporation undercharged the award by $311,133 in compensation costs
and $56,565 in fringe benefits, but also questioned $274,066 in travel,
materials, and indirect costs. NIST submitted an audit resolution proposal
with which we did not concur. We are awaiting NIST’s revised response.

    In the remaining joint venture ATP award audit report, the certified
public accounting firm that conducted the audit questioned a net $92,924
as undercharges to the award. The net amount is a result of $220,271 in
undercharges to direct labor, fringe benefits and other direct costs and
$127,347 in overcharges to equipment and software purchases, material
and supplies, and subcontracts. We are awaiting an audit resolution
proposal from NIST.



September 1998                           Commerce IG Semiannual Report                          71
                                            Departmental Management

                                            Stronger Oversight Needed of Both Bureau
                   CFO and
               Asst. Secretary
                                            and Office of the Secretary Agreements
              for Administration
                                                 As part of the OIG’s Commerce-wide review of interagency and other
        Budget,            Security and     special agreements, we specifically addressed the Department’s manage-
      Management           Administrative
     and Information         Services
                                            ment and oversight of the bureaus’ agreements, as well as its own
                                            agreements processed through the Office of the Secretary. In FY 1997,
     Exec. Budgeting                        Commerce had more than 4,700 agreements, involving approximately
                             Financial
      and Assistance
                            Management
                                            $1.1 billion in funds received for reimbursable activities or obligated to
       Management                           acquire goods or services from other parties. We analyzed more than 250
                                            of those agreements and found that they appear to serve important and
     Systems and              Human         appropriate functions. However, while the agreements may be appropriate,
       Telecom.              Resources
     Management             Management      they are frequently not written, approved, or executed properly. Specifi-
                                            cally, we identified five major deficiencies in the agreements, including the
                                            failure to cite the proper or any legal authority, inadequate justifications,
      Acquisition               Civil
     Management                Rights
                                            incomplete budget information, lack of signatures of authorized officials,
                                            and no clear or defined termination or review periods.

                                                 Early in our review, we found that the Department does not have a
                                            comprehensive set of policies and procedures to guide the bureaus in
                                            undertaking and formulating agreements. As a result, many agreements are
                                            improperly assembled. In addition, agreements often do not receive
                                            adequate budget, procurement, legal, and programmatic review. We also
                                            found that few Commerce bureaus are able to adequately track and control
                                            their agreements.

                                                 We recommended and the Department agreed to prepare formal
                                            policies and procedures outlining the types of agreements that can be
                                            entered into by Commerce bureaus; the minimum necessary content and
                                            steps for preparing agreements; standard language or form agreements; and
                                            the review, approval, and renewal policies and procedures that should be
                                            followed by all bureaus. We also recommended that the Department
                                            disseminate all guidance and other information relevant to preparing and
                                            processing agreements through Commerce’s intranet and at departmental
                                            conferences; upgrade or change the format of OGC’s and the bureau
                                            counsels’ tracking systems to ensure that legal reviews of agreements are
                                            timely and to provide information about the status of the legal review; and
                                            establish a new Department-wide database for all agreements.

                                                 In our sample of 32 Office of the Secretary agreements, which did not
                                            include any of the 109 Office of Computer Services agreements, we found
                                            that, generally, they covered appropriate activities, were properly funded
                                            under applicable laws and legal authorities, and were not used to
                                            circumvent procurement or financial assistance guidelines. We did,


72                                          Commerce IG Semiannual Report                               September 1998
                                                                          Departmental Management


however, find that over 60 percent of the 32 agreements had at least one
of the five major deficiencies cited above. In addition, the office’s review
process for agreements was inadequate, resulting in poor oversight,
incomplete agreements, and other deficiencies. Finally, no unit within the
office has established an automated database for tracking its agreements.

     We recommended and the Office of the Secretary agreed to prepare
internal polices and procedures for its offices that outline the contents and
steps for preparing and implementing agreements; distribute relevant
information for preparing and processing agreements through its network
and at internal conferences; provide training to all program and
administrative staff responsible for agreements; and establish a centralized
system to adequately inventory, track, and control its agreements. This
system should be compatible with the proposed Department-wide
database. The Department and OGC generally agreed with our findings
and recommendations. The Department’s CFO was especially quick to
recognize the need for stronger Department-wide guidance and oversight
for the agreements and is committing resources to address our concerns.
(Inspections and Program Evaluations: IPE-10418)

Concerns About Commercial Law Development
Program’s Use of USAID Funds Unfounded
    Because of allegations concerning the use of U.S. Agency for
International Development (USAID) funds by OGC’s Commercial Law
Development Program, the OIG conducted a review of the handling of
those funds. While our review uncovered no evidence to support the
contention that program officials misused USAID funds, we did find that
OGC did not follow proper procedures in the awarding of cash bonuses to
program employees. We also found that communication between program
officials and State and USAID officials with regard to program progress
reports and expenditures was inadequate. Finally, we questioned the
program’s use of personal service contracts to hire staff. (Inspections and
Program Evaluations: IPE-11027)

OMB Bulletin 97-01 Requires
Greater Departmental Attention
    The OIG performed a limited-scope audit to assess the Department’s
early efforts to implement OMB Bulletin 97-01, Form and Content of
Agency Financial Statements, which relates to the preparation of the
FY 1998 statements. The new bulletin will present challenges to the
Department and its bureaus because it requires modifications to the


September 1998                             Commerce IG Semiannual Report                       73
Departmental Management


                     presentation of financial information, including the preparation of six
                     statements as opposed to the two previously required under OMB Bulletin
                     94-01. Recognizing the challenges involved in implementing the bulletin,
                     we provided briefings to senior management at the various bureaus on the
                     bulletin’s requirements.

                          Our review disclosed that because the Department and the bureaus
                     had focused their financial management resources on completing the
                     FY 1997 financial statements, adequate attention had not been devoted to
                     implementing the bulletin. We found that (1) the bureaus were unclear on
                     how to prepare the statement of net cost, (2) the Department had not
                     provided them with comprehensive written guidance on the FY 1998
                     statements, (3) some bureaus were uncertain about the Department’s
                     request for interim statements, and (4) cost accounting systems and
                     processes were not well documented. Although the Department has
                     recently started demonstrating the leadership essential to preparing
                     consolidated financial statements by issuing preliminary and supplemental
                     guidance on preparing the FY 1998 statements and arranging for training
                     on the new bulletin, a number of issues still needed to be addressed.

                          Specifically, we recommended that the Department (1) perform
                     immediate follow-up reviews of the bureaus’ plans to prepare the
                     statement of net cost, and (2) evaluate the bureaus’ interim financial
                     statements for compliance with the bulletin’s reporting requirements and
                     the Department’s guidance, and provide written feedback. In addition, we
                     recommended that the Department issue a written memorandum reminding
                     the bureaus of the need to document cost accounting activities, processes,
                     and procedures related to the preparation of the statement of net cost. The
                     Department expressed its intent, and has already taken some actions, to
                     implement our recommendations. (Financial and Performance Analysis
                     Division: FPD-10876-8-0001)

                     Audit of Office of Administrative Services
                     Found No Major Problems
                         The OIG conducted a performance audit of the operations of three
                     components of the Department’s Office of Administrative Services: the
                     Offices of Administrative Operations, Budget and Procurement Services
                     (since eliminated as a separate office), and Real Estate Policy and Major
                     Programs. Our field work revealed no significant issues warranting the
                     issuance of an audit report, but did identify two issues warranting
                     management attention, which we reported to the Department in a
                     memorandum: (1) Three Working Capital Fund activities were not
                     managed at their break-even positions during the period audited. (2) The


74                  Commerce IG Semiannual Report                              September 1998
                                                                        Departmental Management


Office of Administrative Services unnecessarily allowed significant
unliquidated obligations of procurement funds of its clients, components of
the Office of the Secretary, to accumulate. The Department replied to our
memorandum by noting that (1) the three Working Capital Fund projects
are now operating at a break-even level, and (2) almost $3.4 million has
been deobligated, of which approximately $2.8 million was in the Office of
Administrative Services. (Business and Trade Audits Division)

Preaward Financial Assistance Screening
    We continue to work with the Office of Executive Assistance
Management, NOAA and NIST grant offices, and EDA program offices to
screen all of the Department’s grants, cooperative agreements, and loan
guarantees before award. Our screening (1) provides information on
whether the applicant has unresolved audit findings and recommendations
on earlier awards, and (2) determines whether a name check or investi-
gation has revealed any negative history on individuals or organizations
connected with a proposed award.

    During this period, we screened 1,760 proposed awards. On 27 of
these awards, we found major deficiencies affecting the ability of the
proposed recipients to maintain proper control over federal funds. On the
basis of information we provided, the Department denied or delayed the
awards, inserted special conditions in the award agreement, or designated
certain recipients as “high risk” and required that the disbursement of
federal funds be on a cost reimbursement basis. (Office of Audits)


                     Preaward Screening Results

                 Results                     Number           Amount
  Awards denied/delayed                         19           $14,864,038

  Special award conditions                        4             7,736,886

  Cost reimbursement basis                        4             2,028,367



Indirect Cost Reviews
     OMB has established a policy whereby a single federal agency is
responsible for the review, negotiation, and approval of indirect cost rates
for federal programs. Normally, the federal agency providing the most
direct funding is the cognizant agency. OMB has designated Commerce as


September 1998                            Commerce IG Semiannual Report                      75
Departmental Management


                     the cognizant agency for 280 economic development districts. In turn, the
                     Department authorized the OIG to negotiate indirect cost rates and review
                     cost allocation plans for each of its agencies. The OIG reviews and
                     approves the methodology and principles used in pooling indirect costs and
                     establishing an appropriate base for distributing those costs to ensure that
                     each federal, state, and local program bears its fair share.

                         During this period, we negotiated 26 indirect cost rate agreements with
                     nonprofit organizations and governmental agencies, and reviewed and
                     approved 18 cost allocation plans. We also provided technical assistance to
                     recipients of Commerce awards regarding the use of rates established by
                     other federal agencies and their applicability to our awards. Further, we
                     worked closely with first-time for-profit recipients of Commerce awards to
                     establish indirect cost proposals that are acceptable for OIG review.
                     (Atlanta Regional Office of Audits)

                     Nonfederal Audit Activities
                          In addition to OIG-performed audits, the Department’s financial-
                     related awards are audited by state and local government auditors and by
                     independent public accountants. OMB Circular A-133, Audits of States,
                     Local Governments, and Non-Profit Organizations, sets forth the audit
                     requirements for most of these entities. Entities that are for-profit
                     organizations and receive ATP funds from NIST are audited in accordance
                     with Government Auditing Standards and NIST Program-Specific Audit
                     Guidelines for ATP Cooperative Agreements, issued by the Department.
                     (Before June 30, 1996, when the requirements for nonfederal audits were
                     consolidated in the new OMB Circular A-133 referenced above, such
                     audits were subject to the requirements of Circular A-128, Audits of State
                     and Local Governments, and the former Circular A-133, Audits of
                     Institutions of Higher Education and Other Non-Profit Institutions. Some
                     of the audits discussed below were conducted in accordance with these
                     earlier circulars.)

                         A tool for assessing the quality of work performed by independent
                     public accountants is the quality control review. The purpose of such a
                     review is to determine that audits were conducted in accordance with
                     applicable standards and requirements.




76                  Commerce IG Semiannual Report                               September 1998
                                                                         Departmental Management


     During this semiannual period, our office participated in a multi-agency
quality control review of a report by an independent public accountant on
its audit of a major metropolitan city. Although we are not the cognizant
federal agency for the city, the Department of Commerce was responsible
for conducting a program-specific review of the working papers relating to
internal control and compliance testing of Commerce programs. We found
a problem concerning the city’s reporting on one Commerce program that
we brought to the city’s attention. In our review of the accountant’s
working papers for internal control and compliance testing, we found no
deficiencies in its testing of Commerce programs. We plan to conduct at
least five such quality control reviews of non-federal audits each year.

     We examined 157 reports during this semiannual period to determine
whether they contained audit findings on any Department programs. For
89 of these reports, the Department is the cognizant agency and monitors
the auditee’s compliance with the applicable OMB circular and NIST
program-specific reporting requirements. The other 68 reports are from
entities for which other federal agencies have oversight responsibility.


                                                                  ATP
                                                 OMB            Program-
                                                A-133            Specific
            Report Category                     Audits           Audits         Total

    Pending (March 31, 1998)                       55               43           98

    Received                                       94               26          120

    Examined                                      119               38          157

    Pending (September 30, 1998)                   30               31           61




September 1998                            Commerce IG Semiannual Report                       77
Departmental Management


                         The following table shows a breakdown by bureau of the $76 million in
                         Commerce funds audited.


                                   Bureau                              Funds

                          EDA                                                   $12,792,946

                          ITA                                                       497,261

                          MBDA                                                    1,377,230
                                                                                              a
                          NIST                                                   51,698,130

                          NOAA                                                    6,294,943

                          NTIA                                                    2,070,841

                          NTIS                                                       13,926

                          PTO                                                        52,621

                          Agency not identified                                     859,754

                                            Total                               $75,657,652

                     a
                         Includes $37,920,969 in ATP program-specific audits.


                             We identified a total of $642,684 in questioned costs. In most
                         reports, the Department’s programs were considered non-major,
                         resulting in limited transaction and compliance testing against laws,
                         regulations, and award terms and conditions. The 19 reports with
                         Commerce findings are listed in Appendix B-1. (Atlanta Regional Office
                         of Audits)




78                  Commerce IG Semiannual Report                               September 1998
                                                Office of
                                       Inspector General

Quality Assurance
External Peer Review of Audit Operations

    A team from the Department of Justice OIG completed an external
peer review of our audit operations. In its report, the Justice team con-
cluded that our Office of Audits has an adequate internal quality control
system. More important, the team reported that as designed, our quality
control system complied with the standards established by the President’s
Council on Integrity and Efficiency and that we were materially complying
with professional standards in the conduct of our audits.

    The Justice team performed a comprehensive review, including both
an examination of our policies and procedures and a critique of the internal
quality assurance program managed by our Office of Compliance and
Administration. The team evaluated a number of completed audit assign-
ments and the audit files at Office of Audits divisions in the Washington,
D.C., area and regional offices in Denver and Seattle.

    The final report’s recommendations centered on updating the OIG
manual to reflect changes to the standards since the last peer review and
encouraging the Office of Audits to thoroughly document adherence to
established policies. The Office of Audits has already responded, and the
Office of Compliance and Administration will emphasize these areas during
future internal quality reviews.

     During this semiannual period, we completed a similar peer review of
the audit activities of the Social Security Administration OIG. Our final
report, presented in July, concluded that the agency’s OIG also had a
quality control system that complied with professional standards, which
constituted a validation of the quality of its operations and audit reports.

GAO Review of Financial Statement Audit Work

    Also during this semiannual period, the General Accounting Office
completed a review of our financial statement audit work. GAO reviewed
computer controls, the Department’s consolidated financial statements
audit, and selected individual bureau audits. In the area of computer
controls, GAO concluded that all major general control areas were
properly covered and the procedures to monitor contractor performance
contributed to the completion of a full-scope review of these controls. In
addition, GAO noted its acceptance and reliance on the work performed in
our audits for use in its government-wide financial statement audit.



September 1998                            Commerce IG Semiannual Report        79
                                       Reporting Requirements


                                                       INDEX
           The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
           semiannual reports. The requirements are listed below and indexed to the applicable pages.

       Section                                           Topic                                     Page
 4(a)(2)                    Review of Legislation and Regulations                                          81

 5(a)(1)                    Significant Problems, Abuses, and Deficiencies                              17-78

 5(a)(2)                    Significant Recommendations for Corrective Action                           17-78

 5(a)(3)                    Prior Significant Recommendations Unimplemented                                81

 5(a)(4)                    Matters Referred to Prosecutive Authorities                                 17-78

 5(a)(5) and 6(b)(2)        Information or Assistance Refused                                              82

 5(a)(6)                    Listing of Audit Reports                                                    90-96

 5(a)(7)                    Summary of Significant Reports                                              17-78

 5(a)(8)                    Audit Reports—Questioned Costs                                              86, 89

 5(a)(9)                    Audit Reports—Funds to Be Put to Better Use                                 87, 88

 5(a)(10)                   Prior Audit Reports Unresolved                                              14, 82

 5(a)(11)                   Significant Revised Management Decisions                                    15, 83

 5(a)(12)                   Significant Management Decisions with Which the OIG Disagreed                  83

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. We will
 discuss this matter in the March 1999 issue as part of our financial statement audit reporting.




80                                       Commerce IG Semiannual Report                         September 1998
                                                                              Reporting Requirements


Section 4(a)(2): Review of Legislation
and Regulations
     This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency’s
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning
the impact of such legislation or regulations on the economy and efficiency
in the administration of programs and operations administered or financed
by the agency or on the prevention and detection of fraud and abuse in
those programs and operations. Our recommendations on legislative and
regulatory initiatives affecting Commerce programs are discussed
throughout the report.

Section 5(a)(3): Prior Significant
Recommendations Unimplemented
    This section requires an identification of each significant
recommendation described in previous semiannual reports on which
corrective action has not been completed. Section 5(b) requires that the
Secretary transmit to the Congress statistical tables for audit reports for
which no final action has been taken, plus a statement that includes an
explanation of the reasons final action has not been taken on each such
audit report, except when the management decision was made within the
preceding year.

    Prior Inspector General semiannual reports have explained that to
include a list of all significant unimplemented recommendations in this
report would be duplicative, costly, unwieldy, and of limited value to the
Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-upon
corrective action. Also, as this semiannual report is being prepared,
management is in the process of updating the Department’s Audit Tracking
System as of September 30, 1998, based on semiannual status reports due
from the bureaus in mid-October. An up-to-date database is therefore not
available to the OIG for reference here. However, additional information
on the status of any audit recommendations may be obtained through the
OIG’s Office of Audits.




September 1998                            Commerce IG Semiannual Report                           81
Reporting Requirements


                         Sections 5(a)(5) and 6(b)(2): Information or
                         Assistance Refused
                         These sections require a summary of each report to the Secretary when
                         access, information, or assistance has been unreasonably refused or not
                         provided. There were no such instances during this semiannual period, and
                         no reports to the Secretary.

                         Section 5(a)(10): Prior Audit Reports Unresolved
                             This section requires a summary of each audit report issued before the
                         beginning of the reporting period for which no management decision has
                         been made by the end of the reporting period (including the date and title
                         of each such report), an explanation of the reasons such management
                         decision has not been made, and a statement concerning the desired
                         timetable for achieving a management decision on each such report.

                             As of September 30, 1998, 1 performance audit, 11 financial
                         assistance audits, and 2 preaward contract audits were in this category, as
                         discussed below.

                         Performance Audit

                             The unresolved report addresses the NMFS laboratory structure. This
                         report is discussed on page 61.

                         Financial Assistance Audits

                              The 11 unresolved audits relate to financial assistance awards made by
                         NIST (9) and NOAA (2). Audit resolution proposals have been submitted
                         in response to nine of the final audit reports; however, the OIG and the
                         bureaus were not able to resolve the reports on a timely basis. The OIG is
                         awaiting audit resolution proposals for the other two reports. Additional
                         details are presented on pages 61 and 71.

                         Preaward Contract Audits

                             The Department’s Audit Tracking System recorded two preaward
                         contract audits unresolved in excess of six months. The audits, based on
                         Defense Contract Audit Agency reviews of contract proposals, are
                         resolved when a contracting officer takes final action on the pending
                         procurement, such as awarding a contract or issuing a contract
                         modification.



82                       Commerce IG Semiannual Report                              September 1998
                                                                              Reporting Requirements


    The unresolved preaward contract audits are:

l       ARA-08350-6-0082, August 6, 1996
l       OCA-08350-7-0025, June 13, 1997

Section 5(a)(11): Significant Revised
Management Decisions
    This section requires a description and explanation of the reasons for
any significant revised management decision made during the reporting
period. Department Administrative Order 213-5, Audit Resolution and
Follow-up, provides procedures for revision of a management decision.
For performance audits, the OIG must be consulted and must approve, in
advance, any modification to an audit action plan. For financial assistance
audits, the OIG must concur with any decision that would change the audit
resolution proposal in response to an appeal by the recipient.

    During the reporting period, one modification was submitted to the
OIG for review. The modification did not involve an issue with current
significance, and the OIG concurred with the proposed adjustment.

    The decisions issued on the six appeals of audit-related debts were
finalized with the full participation and concurrence of the OIG.

Section 5(a)(12): Significant Management
Decisions with Which the OIG Disagreed
   This section requires information concerning any significant
management decision with which the Inspector General is in disagreement.

    Department Administrative Order 213-5 provides procedures for the
elevation of unresolved audit recommendations to higher levels of
Department and OIG management, including an Audit Resolution Council.
During this period, no audit issues were referred to the Council.




September 1998                           Commerce IG Semiannual Report                            83
                               Statistical Highlights

                                           Audit
                                  Statistical Highlights
     Questioned costs this period ...........................................                         $2,411,214

     Value of audit recommendations made
     this period that funds be put to better use ........................                           $15,332,863

     Value of audit recommendations agreed
     to this period by management .........................................                           $3,395,219




                                      Investigative
                                  Statistical Highlights
     Indictments and informations ............................................................ 2
     Convictions ...................................................................................... 2
     Personnel actions* ........................................................................... 6
     Administrative actions** .................................................................... 6
     Fines, restitutions, judgments, and other civil
     and administrative recoveries ...............................................              $91,347
     ** Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
     ** or retirements in lieu of adverse action.
     ** Includes actions to recover funds, new procedures, and policy changes that result from
     ** investigations.




                                Allegations Processed
                                 by OIG Investigators
                                     Accepted for investigation ...................................... 30
                                     Referred to operating units .................................... 41
                                     Evaluated but not accepted for
                                     investigation or referral ........................................... 38
                                     Total ........................................................................ 109
                                     In addition, numerous other allegations and complaints were forwarded to
                                     the appropriate federal and nonfederal investigative agencies.
                                     In addition

                                               OIG HOTLINE
                   Telephone:                 (202) 482-2495 or (800) 424-5197
                   Internet E-Mail:         oighotline@doc.gov




84                               Commerce IG Semiannual Report                                                            September 1998
                         Tables and Appendixes


  TABLES                                                                                                         PAGE

  1. Audits with Questioned Costs                                                                                   86

  2. Audits with Recommendations That Funds Be Put to Better Use                                                    87

  3. Preaward Contract Audits with Recommendations That Funds Be Put to Better Use                                  88

  4. Postaward Contract Audits with Questioned Costs                                                                89


  APPENDIXES
  A. Office of Inspector General Reports                                                                            90

      A-1. Performance Audits                                                                                       90

      A-2. Inspections                                                                                              92

      A-3. Financial Assistance Audits                                                                              93

  B. Processed Reports                                                                                              95

      B-1. Processed Financial-Related Audits                                                                       96


  DEFINITIONS
  The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
  provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
  expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation;
  or (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

  The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
  Questioned costs include unsupported costs.

  The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could
  be used more efficiently if Commerce management took action to implement and complete the recommendation,
  including (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest
  subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended
  improvements related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in
  preaward reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

  The term management decision refers to management’s evaluation of the findings and recommendations included in
  the audit report and the issuance of a final decision by management concerning its response.




September 1998                            Commerce IG Semiannual Report                                                   85
Tables and Appendixes



     Table 1: Audits with Questioned Costs
                                                                                          Questioned         Unsupported
     Report Category                                                      Number            Costs               Costs

     A. Reports for which no management decision had been
        made by the commencement of the reporting period                      35            $9,523,703             $1,576,577


     B. Reports issued during the reporting period                            22              2,411,214             1,247,580

     C. Total reports (A+B) requiring a management decision
     C. during the reporting period                                           57            11,934,917              2,824,157

     C. Reports for which a management decision was made
     C. during the reporting period                                           32              3,508,795             1,643,701


        ii. Value of disallowed costs                                                         1,499,166              696,692


        ii. Value of costs not disallowed                                                     2,030,272              955,540

     D. Reports for which no management decision had been
     D. made by the end of the reporting period                               25            $8,426,122             $1,180,456

        Notes and Explanations:
        In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.
        Five audit reports included in this table are also included in the reports with recommendations that funds be
        put to better use (see Table 2). However, the dollar amounts do not overlap.
        No postaward contract audits are included in this table; instead, any such audits are listed in Table 4.




86                                           Commerce IG Semiannual Report                                   September 1998
                                                                                  Tables and Appendixes



  Table 2: Audits with Recommendations
  Table 2: That Funds Be Put to Better Use

  Report Category                                                                        Number                 Value

  A. Reports for which no management decision had been made by the
  A. commencement of the reporting period                                                     5                 $8,571,588


  B. Reports issued during the reporting period                                               6                 15,332,863

  C. Total reports (A+B) requiring a management decision during the
  B. reporting period                                                                        11                 23,904,451

  C. Reports for which a management decision was made during the
  C. reporting period                                                                         4                  2,394,588


     ii. Value of recommendations agreed to by management                                                        1,873,378


     ii. Value of recommendations not agreed to by management                                                     521,210

  D. Reports for which no management decision had been made by the
  D. end of the reporting period                                                              7                $21,509,863

     Notes and Explanations:
     In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
     than the original recommendations.
     Five audit reports included in this table are also included in the reports with questioned costs (see Table 1).
     However, the dollar amounts do not overlap.
     No preaward contract audits are included in this table; instead, any such audits are listed in Table 3.




September 1998                            Commerce IG Semiannual Report                                                    87
Tables and Appendixes



     Table 3: Preaward Contract Audits with Recommendations
     Table 3: That Funds Be Put to Better Use

     Report Category                                                                         Number                Value

     A. Reports for which no management decision had been made by the
     A. commencement of the reporting period                                                     3                  $537,340


     B. Reports issued during the reporting period                                               —                         —

     C. Total reports (A+B) requiring a management decision during the
     B. reporting period                                                                         3                    537,340

     C. Reports for which a management decision was made during the
     C. reporting period                                                                         1                     16,075


        ii. Value of recommendations agreed to by management                                                           22,675


        ii. Value of recommendations not agreed to by management                                                           —


        iii. Value of reports on proposals that were not awarded contract                                                  —

     D. Reports for which no management decision had been made by the
     D. end of the reporting period                                                              2                  $521,265

        Notes and Explanations:
        Preaward audits of contracts include results of audits performed for the OIG by other agencies.
        When there are multiple proposals for the same contract, we report only the proposal with the lowest dollar value
        for funds to be put to better use; however, in Category C, lines i-ii, we report the value of the awarded contract.
        In Category C, lines i-iii do not always equal the total on line C since resolution may result in values greater
        than the original recommendations.




88                                            Commerce IG Semiannual Report                                   September 1998
                                                                                 Tables and Appendixes



  Table 4: Postaward Contract Audits
  Table 4: with Questioned Costs
                                                                                     Questioned         Unsupported
  Report Category                                                     Number           Costs               Costs

  A. Reports for which no management decision had been
     made by the commencement of the reporting period                     —                       —                   —


  B. Reports issued during the reporting period                           —                       —                   —

  C. Total reports (A+B) requiring a management decision
  C. during the reporting period                                          —                       —                   —

  C. Reports for which a management decision was made
  C. during the reporting period                                          —                       —                   —


     ii. Value of disallowed costs                                                                —                   —


     ii. Value of costs not disallowed                                                            —                   —

  D. Reports for which no management decision had been
  D. made by the end of the reporting period                              —                       —                   —

     Notes and Explanations:
     As noted in the September 1997 issue (page 58), the OIG transferred certain audit-related activities to the
     Department’s contracting officers, allowing them to request audits directly from the cognizant audit offices. As a
     result, data on contract audit savings is now maintained by the cognizant audit office rather than by the OIG.




September 1998                           Commerce IG Semiannual Report                                                    89
Tables and Appendixes



     Appendix A. Office of Inspector General Reports
                                     Type                                            Number      Appendix
 Performance Audits                                                                    24           A-1

 Inspections                                                                           12           A-2

 Financial Assistance Audits                                                           21           A-3

 Total                                                                                 57




     Appendix A-1. Performance Audits
                                                                                                 Funds to
                                                                                                Be Put to
     Agency                        Subject                            Number           Date     Better Use
      EDA      Hurricane Andrew Disaster Assistance: EDA Made     ATL-8989-8-0001      09/98      $2,200,000
               Fast, Sound Project Selections but Could Have
               Better Managed Problem Projects

               Midwest Flood Program: Opportunities Exist to      DEN-8772-8-0001      09/98         773,000
               Improve Management of Future Disaster Programs

       ESA     Columbia Dress Rehearsal Experience Suggests       ESD-10783-8-0001     09/98              —
               Changes to Improve Results of the 2000 Decennial
               Census

               Columbia Dress Rehearsal Identifies Needed         ATL-11050-8-0001     09/98              __
               Improvements in Personnel Administration

               Quality Check Survey Should Be Kept Independent    ESD-10784-8-0002     09/98              —
               of Other Decennial Operations

               Sacramento Dress Rehearsal Experience Suggests     ESD-10784-8-0001     09/98              —
               Changes to Improve Results of the 2000 Decennial
               Census

               Sacramento Dress Rehearsal Identifies Needed       STL-11052-8-0001     09/98              —
               Improvements in Personnel Administration

       ITA     US&FCS Spain’s Leadership Has Improved             IAD-10593-8-0001     07/98              —
               Operating Environment, but Some Program
               Activities Need More Emphasis

               US&FCS Japan Should Be Restructured to Better      IAD-10218-8-0001     09/98              —
               Meet the Needs of U.S. Exporters


90                                    Commerce IG Semiannual Report                            September 1998
                                                                           Tables and Appendixes



  Appendix A-1. Performance Audits — Continued
                                                                                                Funds to
                                                                                               Be Put to
   Agency                              Subject                          Number         Date    Better Use
    MBDA         Community-Based Enhanced Services Pilot Project    EDD-9406-8-0002    06/98             —
                 Not Effectively Monitored

                 Discretionary Funding Decision Process: Minority   BTD-10956-8-0001   09/98             —
                 Business Development Center Program
                 CFDA No. 11.800

                 Discretionary Funding Decision Process: Native     BTD-10955-8-0001   09/98             —
                 American Business Development Center Program
                 CFDA No. 11.801

    NOAA         Light Aircraft Fleet Should Be Privatized          STD-9952-8-0001    08/98    $11,800,000

                 NMFS Office of Law Enforcement Needs               STL-9835-8-0001    09/98             —
                 Management Improvements

                 NMFS Seafood Inspection Program Should Be          STL-9607-8-0001    09/98       462,000
                 Divested

                 NWS’s New Supercomputer Should Be Located at       STD-10925-8-0001   09/98             —
                 Federal Building 4 in Suitland, MD

                 OAR Needs Additional Management Systems to         STL-8519-8-0001    09/98             —
                 Meet the Intent of the Results Act

                 Personal Property Balance Requires Significant     FSC-10875-8-0001   09/98             —
                 Attention to Be Properly Stated in Financial
                 Statements

                 Proposed Goddard Facility Presented Cost           NAD-9574-8-0001    09/98             —
                 Reduction Opportunities

     O/S         OMB Bulletin 97-01 Implementation Requires         FPD-10876-8-0001   09/98             —
                 Additional Efforts by the Department

     PTO         New Cost Accounting System Appropriately           FSD-10782-8-0001   06/98             —
                 Considers Reporting Requirements

                 Office of Enrollment and Discipline Must Conduct   PTD-10627-8-0001   06/98             —
                 More Timely Investigations of Complaints Against
                 Practitioners

                 Board of Patent Appeals and Interferences: High    BTD-10628-8-0001   09/98             —
                 Inventory and Inadequate Monitoring Threaten
                 Effectiveness of Appeal Process

   TA - NTIS     Operations Jeopardized by Revenue Shortfall        STD-10592-8-0001   09/98             —




September 1998                            Commerce IG Semiannual Report                                     91
Tables and Appendixes



     Appendix A-2. Inspections
                                                                                               Funds to
                                                                                              Be Put to
     Agency                           Subject                               Number   Date     Better Use
       ESA       Additional Steps Needed to Improve Local Update of     IPE-10756    09/98             —
                 Census Addresses for the 2000 Decennial Census

                 Computer Security for Transmission of Sensitive        OSE-10773    09/98             —
                 Data Should Be Strengthened

                 Dress Rehearsal Activities at Menominee Indian         IPE-10753    09/98             —
                 Reservation and Chicago Regional Census Center
                 Show That Improvements Are Needed for Census
                 2000

       ITA       Dallas USEAC Is Rebuilding to More Aggessively         IPE-11006    09/98             —
                 Pursue Export Promotion Activities

                 Improvements Are Needed in ITA’s Management of         IPE-10752    09/98             —
                 Interagency and Other Special Agreements

      NOAA       OAR’s Interagency and Other Special Agreements         IPE-10310    05/98             —
                 Require Additional Improvements for Compliance

                 Administrative Improvements in the National Sea        IPE-10150    07/98             —
                 Grant College Program Should Accompany
                 Program Changes

                 NMFS’s Interagency and Other Special Agreements        IPE-10775    09/98             —
                 Require Additional Improvements

                 NPOESS Acquisition Well Planned, but Life-Cycle        OSE-9593     09/98             —
                 Cost Estimates for Critical Sensors Are Overstated

       O/S       Concerns About the Commercial Law Development          IPE-11027    09/98             —
                 Program Largely Unfounded

                 Interagency and Other Special Agreements Require       IPE-10418    09/98             —
                 Better Management and Oversight

     TA - NIST   Policy of Allowing Informal Collaborations with Non-   IPE-10854    09/98             —
                 Federal Researchers Requires Additional Controls




92                                        Commerce IG Semiannual Report                      September 1998
                                                                                                         Tables and Appendixes



   Appendix A-3. Financial Assistance Audits
                                                                                                                    Funds to
                                                                                             Questioned Unsupported Be Put to
    Agency                        Auditee                         Number                Date   Costs       Costs    Better Use
       EDA             West Virginia High                   ATL-9259-8-0002             05/98                    —                    —                 —
                       Technology Consortium
                       Foundation

      MBDA             W&R Associates, CT                   ATL-8923-8-0001             09/98            $95,199                $2,735            $94,434

      NOAA             West Virginia High                   ATL-10792-8-0001            09/98            166,101                      —                 —
                       Technology Consortium
                       Foundation

       NTIA            United Cerebral Palsy                ATL-10378-8-0001            09/98            112,243              103,380                   —
                       Associations, Inc., DC

    TA - NIST          Vermont Technological                DEN-9955-8-0001             05/98              57,438               57,438                  —
                       College

                       CNgroup, Inc., CA                    DEN-10689-8-0001 06/98                               —                    —                 —

                       Boise State University, ID           DEN-10648-8-0001 08/98                               —                    —                 —

                       Calmac Manufacturing                 DEN-10975-8-0001 08/98                               —                    —                 —
                       Corporation, NJ

                       Consilium, Inc., CA                  DEN-10831-8-0001 08/98                               —                    —                 —

                       Data Access                          DEN-10922-8-0001 08/98                               —                    —                 —
                       Technologies, Inc., FL

                       DeMaria ElectroOptics                DEN-10912-8-0001 08/98                               —                    —                 —
                       Systems, Inc., CT

                       Galileo Corporation, MA              DEN-10904-8-0001 08/98                          6,693                 6,693                 —

                       Isis Pharmaceuticals, CA             DEN-10941-8-0001 08/98                               —                    —                 —

                       Lamb Technicon, MI                   DEN-11085-8-0001 08/98                               —                    —                 —

                       Puerto Rico                          DEN-10112-8-0001 08/98                               —                    —                 —
                       Manufacturing Extension,
                       Inc.

                       Alexion Pharmaceuticals,             DEN-10981-8-0001 09/98                               —                    —                 —
                       Inc., CT

                       Delaware Valley Industrial           DEN-9618-8-0001             09/98            993,532              947,942                   —
                       Resource Center, PA

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.



September 1998                                         Commerce IG Semiannual Report                                                                    93
Tables and Appendixes



     Appendix A-3. Financial Assistance Audits — Continued
                                                                                                                   Funds to
                                                                                            Questioned Unsupported Be Put to
     Agency                      Auditee                         Number                Date   Costs       Costs    Better Use
     TA - NIST        Industrial Technology                DEN-10632-8-0001 09/98                               —                    —                 3,429
                      Institute, MI

                      Iterated Systems, Inc.,              DEN-11087-8-0001 09/98                         12,085                     —                   —
                      GA

                      Maxygen, Inc., CA                    DEN-11020-8-0001 09/98                               —                    —                   —

                      West Virginia                        DEN-10552-8-0001 09/98                       325,239              116,865                     —
                      Manufacturing Extension
                      Partnership

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




94                                                     Commerce IG Semiannual Report                                                   September 1998
                                                                             Tables and Appendixes



                 Appendix B. Processed Reports
             The Office of Inspector General reviewed and accepted 157 financial-related audit reports
             prepared by independent public accountants and local, state, and other federal auditors.
             The reports processed with questioned costs, recommendations that funds be put to better
             use, and/or nonfinancial recommendations are listed in Appendix B-1.

                                          Agency                                        Audits

             Economic Development Administration                                           42

             International Trade Administration                                              1

             Minority Business Development Agency                                            8

             National Institute of Standards and Technology                                48 *

             National Oceanic and Atmospheric Administration                                 5

             National Telecommunications and Information Administration                      6

             Multi-Agency                                                                  11

             Agency Not Identified                                                         36

             Total                                                                        157

             * Includes 38 ATP program-specific audits.




September 1998                        Commerce IG Semiannual Report                                      95
Tables and Appendixes



     Appendix B-1. Processed Financial-Related Audits
                                                                                                                     Funds to
                                                                                              Questioned Unsupported Be Put to
     Agency                        Auditee                           Number              Date   Costs       Costs    Better Use
       EDA           Heart of Georgia Altamaha                  ATL-9999-8-0193 09/98                           —                    —                 —
                     Regional Development Center

                     City of Fremont, MI                        ATL-9999-8-0340 09/98                   $81,195                      —                 —

                     Del Norte Economic                         ATL-9999-8-1039 09/98                           —                    —                 —
                     Development Corporation, CA

      MBDA           All Indian Pueblo Council, NM              ATL-9999-8-0309 09/98                      7,257               $7,257                  —

       NTIA          Urban League of Metropolitan               ATL-9999-8-0209 09/98                    30,177                  1,461                 —
                     Seattle, WA

     TA - NIST       Real-Time Innovations, Inc., CA ATL-9999-8-0009 06/98                                 6,307                     —                 —

                     ATx Telecom Systems, Inc., IL ATL-9999-8-0021 06/98                                 24,273                      —                 —

                     Vysis, Inc., IL                            ATL-9999-8-0026 06/98                      3,704                 3,704                 —

                     Vysis, Inc., IL                            ATL-9999-8-0027 06/98                    10,237                      —                 —

                     Honeywell, Inc., MN                        ATL-9999-8-0043 06/98                      5,799                     —                 —

                     FED Corporation, NY                        ATL-9999-8-0050 06/98                      4,011                     —                 —

                     The Black Emerald Group,                   ATL-9999-8-0087 06/98                      6,339                     —                 —
                     Inc., MA

                     International Cancer Alliance              ATL-9999-8-0037 07/98                    10,430                      —                 —
                     for Research and Education,
                     MD

                     Allied Signal, Inc., NY                    ATL-9999-8-0049 07/98                      7,171                     —                 —

                     M&M Precision Systems                      ATL-9999-8-0057 07/98                    13,924                    105                 —
                     Corporation, OH

                     Cerner Corporation, MO                     ATL-9999-8-0004 09/98                           —                    —                 —

                     Molecular Dynamics, Inc., CA               ATL-9999-8-0010 09/98                   431,860                      —                 —

                     Advanced Modular Solutions,                ATL-9999-8-0029 09/98                           —                    —                 —
                     Inc., MA

                     Thomas Electronics, Inc., NJ               ATL-9999-8-0048 09/98                           —                    —                 —

 Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




96                                                    Commerce IG Semiannual Report                                                    September 1998
   Definitions of Types of OIG Reviews
 and Financial Statements Audit Terms


                                              OIG Reviews
  Audits                                                    Inspections
  Performance Audits — These audits look at the             Operational Inspections — These are reviews of
  efficiency, effectiveness, and economy of the             an activity, unit, or office, or a contractor or organi-
  Department’s programs, activities, and information        zation that receives funds from the Department.
  technology systems. They may check a unit’s               They focus on an organization, not a whole pro-
  compliance with laws and regulations, and evaluate        gram, and are designed to give agency managers
  its success in achieving program objectives.              timely information about operations, including
                                                            current and foreseeable problems.
  Financial-Related Audits — These audits review
  the Department’s contracts, grants, cooperative           Program Evaluations — These are in-depth
  agreements, loans, and loan guaranties. They assess       reviews of specific management issues, policies, or
  compliance with laws, regulations, and award terms;       programs.
  adequacy of accounting systems and internal
                                                            Systems Evaluations — These are reviews of sys-
  controls; allowance of costs; and the degree to
                                                            tem development, acquisitions, operations, and
  which a project achieved the intended results.
                                                            policy in order to improve efficiency and effective-
  Financial Statements Audits — The CFO Act, as             ness. They focus on Department-wide computer
  amended by Government Management Reform Act,              systems and other technologies and address all
  requires federal agencies to prepare annual financial     project phases, including business process
  statements and to subject them to audit. The OIG is       reengineering, system definition, system develop-
  responsible for conducting these audits and report-       ment, deployment, operations, and maintenance.
  ing the results to the Secretary.


                        Financial Statements Audit Terms
  Overview — This required component of financial           Unqualified Opinion — The financial statements
  statements is to provide a clear, concise description     present fairly, in all material aspects, the entity’s
  of the entity’s programs, activities, and results. It     financial position and results of operations.
  contains the entity’s performance measures and
                                                            Qualified Opinion — Except for the effects of the
  serves as a link between the statements and the
                                                            matter(s) to which the qualification relates, the
  requirements of GPRA.
                                                            financial statements present fairly, in all material
  Trend Analysis — This analysis of performance             respects, the entity’s financial position and results of
  data from multiple years allows conclusions to be         operations.
  drawn about an entity’s progress over time in
                                                            Adverse Opinion — The financial statements do
  improving its results. To facilitate this analysis, the
                                                            not present fairly the entity’s financial position or
  entity should present data from several prior years,
                                                            results of operations.
  projected data for the following year, and a
  comparison of actual versus targeted performance.         Disclaimer of Opinion — The auditor does not
                                                            express an opinion on the financial statements.


September 1998                           Commerce IG Semiannual Report                                                 97
                                            Glossary of Abbreviations

AFOS ................................................................................................. Automation of Field Operations and Services
AOC ............................................................................................................................. Aircraft Operations Center
ATP ....................................................................................................................... Advanced Technology Program
AWIPS ........................................................................................ Advanced Weather Interactive Processing System
BEA .......................................................................................................................... Bureau of Economic Analysis
BXA .................................................................................................................... Bureau of Export Administration
CAMS ............................................................................................Commerce Administrative Management System
EDA........................................................................................................... Economic Development Administration
ESA .......................................................................................................... Economics and Statistics Administration
FB-4 .......................................................................................................................................... Federal Building 4
GAO ............................................................................................................................. General Accounting Office
GMD ........................................................................................................................... grants management division
GPRA ................................................................................................... Government Performance and Results Act
GSA ...................................................................................................................... General Services Administration
HACCP ........................................................................................................ Hazard Analysis Critical Control Point
ICM .................................................................................................................... integrated coverage measurement
IPO ................................................................................................................................ Integrated Program Office
ISD ............................................................................................................................. Inspection Services Division
ITA .................................................................................................................... International Trade Administration
LUCA ............................................................................................................... Local Update of Census Addresses
MAF ....................................................................................................................................... Master Address File
MBDA ...................................................................................................... Minority Business Development Agency
NIST ...............................................................................................National Institute of Standards and Technology
NMFS ................................................................................................................. National Marine Fisheries Service
NOAA ........................................................................................ National Oceanic and Atmospheric Administration
NOS ................................................................................................................................... National Ocean Service
NPOESS ........................................................... National Polar-orbiting Operational Environmental Satellite System
NRC ............................................................................................................................. National Research Council
NSGO ............................................................................................................................ National Sea Grant Office
NTIA ........................................................................ National Telecommunications and Information Administration
NTIS .......................................................................................................... National Technical Information Service
NWS ............................................................................................................................... National Weather Service
OAR ................................................................................................. Office of Oceanic and Atmospheric Research
OED ................................................................................................................ Office of Enrollment and Discipline
OGC .............................................................................................................................. Office of General Counsel
OIG ............................................................................................................................. Office of Inspector General
OMB................................................................................................................. Office of Management and Budget
PBO ...................................................................................................................... performance-based organization
PTO .......................................................................................................................... Patent and Trademark Office
RLF ......................................................................................................................................... revolving loan fund
TA ................................................................................................................................ Technology Administration
US&FCS ...................................................................................................... U.S. and Foreign Commercial Service
USAID ................................................................................................. U.S. Agency for International Development
USEAC ....................................................................................................................U.S. Export Assistance Center
Y2K ....................................................................................................................................................... year 2000

98                                                        Commerce IG Semiannual Report                                                      September 1998
                                        Office of Inspector General
                                            Organization Chart

                                                                        Inspector
                Office of                                                General
             Compliance and                                                                                                     Office of
             Administration                                             Deputy                                                  Counsel
                                                                   Inspector General

               Office of
                                                                                                                             Office of
           Inspections and
                                                                                                                        Systems Evaluation
         Program Evaluations



                               Office of                                                                           Office of
                                Audits                                                                          Investigations



Headquarters            Financial Statements                Regional                  Financial Fraud                Investigative          Special Activities
   Audits                      Audits                        Audits                        Unit                       Operations                Section

   Business                    Financial                    Atlanta                                                  Washington
   and Trade                  Statements                    Regional                                                   Field
    Audits                      Audits                       Office                                                  Operations
  Economics                   Financial                      Denver                                                  Silver Spring
 and Statistics          Statements Contract                Regional                                                     Field
    Audits                     Audits                        Office                                                   Operations
   Science                     Financial                    Seattle                                                    Denver
and Technology             and Performance                  Regional                                                    Field
    Audits                     Analysis                      Office                                                   Operations




                                                   OIG Points of Contact
Inspector General ..................................... (202) 482-4661          Office of Counsel ...................................... (202) 482-5992
Congressional Liaison .............................. (202) 482-3052             Office of Inspections and Program Eval. .. (202) 482-2754
Office of Audits ......................................... (202) 482-1934       Office of Investigations ............................. (202) 482-0934
Office of Compliance and Admin. ............. (202) 482-0231                    Office of Systems Evaluation ................... (202) 482-6186
                                            TDD Number .................................... (202) 482-4948
                                            Media Inquiries .................................. (202) 482-5992
                                            REQUESTS FOR REPORTS:
                                            Telephone .......................................... (202) 482-0231
                                            Internet E-Mail ................................... oigreports@doc.gov
                                            OIG HOTLINE:
                                            Telephone .......................................... (202) 482-2495 or (800) 424-5197
                                            Internet E-Mail ................................... oighotline@doc.gov

                                                           OIG Internet Home Page
                                                 http://www.oig.doc.gov
